<html>
<title> - MISCELLANEOUS NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 111-282]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-282

                MISCELLANEOUS NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON


                           S. 1369                               H.R. 1121

                           S. 1405                               H.R. 1287

                           S. 1413                               H.R. 2802

                           S. 1767                               H.R. 3113

                           S. Res. 275



                                     

                               __________

                            NOVEMBER 4, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
55-019 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee













                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Kirk, Hon. Paul, U.S. Senator From Massachusetts.................     4
Stevenson, Katherine H., Assistant Director, Business Services, 
  National Park Service, Department of the Interior..............     6
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                                APPENDIX

Additional material submitted for the record.....................    17

 
                MISCELLANEOUS NATIONAL PARKS LEGISLATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Parks subcommittee will come to order.
    This afternoon the Subcommittee on National Parks will 
consider several bills and one Senate Resolution pending before 
this subcommittee.
    It appears that most of these bills are noncontroversial, 
although one or two may require more attention.
    The bills today include S. 1369, to designate segments of 
the Molalla River in the State of Oregon as components of the 
National Wild and Scenic River System;
    S. 1405, to rename the Longfellow National Historic Site in 
Massachusetts as the Longfellow House-Washington's Headquarters 
National Historic Site;
    S. 1413, to expand the boundary of the Adams National 
Historical Park in Quincy, Massachusetts to include the Quincy 
Homestead Property;
    S. 1767 and H.R. 1121, to authorize a land exchange between 
the Blue Ridge Parkway and the town of Blowing Rock, North 
Carolina;
    S. Res. 275, to honor the Minute Man National Historical 
Park on the occasion of its 50th anniversary;
    H.R. 2802, to extend the authority of the Adams Memorial 
Foundation to establish a commemorative work in the honor of 
former President John Adams and his legacy;
    H.R. 1287, to authorize the Secretary of the Interior to 
enter into a partnership regarding the use of a visitor center 
for the Indiana Dunes National Lakeshore; and
    H.R. 3113, to study a segment of the Elk River in the State 
of West Virginia for potential addition to the National Wild 
and Scenic River System.
    The two Massachusetts park bills were either sponsored or 
cosponsored by Senator Kennedy, and I look forward to working 
with Senator Kerry, Senator Kirk, our ranking member, Senator 
Burr, and other members of the committee, to address any 
outstanding issues so that we can advance these bills through 
the Senate.
    At this time, I'd like to recognize the ranking member of 
the subcommittee, Senator Burr, for his opening statement.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Mr. Chairman, thank you. Thank you for 
convening this hearing before the National Parks Subcommittee.
    As you've stated, we've got 8 bills on the agenda today. I 
want to thank you for not going with 60 bills, which is the 
historical nature of the subcommittee. I think we can handle 
these more expeditiously, in smaller tranches.
    One of the bills on the agenda is important to my home 
State of North Carolina, the Blue Ridge Land Exchange--Parkway 
Land Exchange, which I introduced along with Senator Hagan. Mr. 
Chairman, I would ask unanimous consent to enter into the 
record a statement from Senator Hagan, as well as unanimous 
consent to enter into the record letters from the mayors of 
Blowing Rock.
    Senator Udall. Without objection.
    [The prepared statement of Senator Hagan follows:]
      Prepared Statement of Hon. Kay R. Hagan, U.S. Senator From 
                             North Carolina
                                 s.1767
    Mr. Chairman and Members of the Subcommittee,
    Thank you for the opportunity to submit testimony regarding 
S.1767--the Blue Ridge Parkway and Town of Blowing Rock Land Exchange 
Act of 2009. Senator Burr and I introduced this legislation on October 
8, 2009, following the passage of identical legislation (H.R. 1121) by 
the House of Representatives on July 27, 2009. Introduced by 
Congresswoman Virginia Foxx, and co-sponsored by the entire North 
Carolina delegation, H.R. 1121 was approved in the House by a vote of 
377-0.
    As introduced, S. 1767 will authorize the Secretary of the Interior 
to engage in a land exchange with the Town of Blowing Rock (``Town'') 
in western North Carolina. In particular, the bill will allow the 
Secretary to trade approximately 20 acres of land within the boundaries 
of the Blue Ridge Parkway for approximately 192 acres of land owned by 
the Town. The purpose of this exchange is to simplify a longstanding 
agreement between the National Park Service (NPS) and the Town with 
regard to a small reservoir within the Blue Ridge Parkway boundary. The 
House Committee on Natural Resources reports:

          This land exchange is supported by both the Town of Blowing 
        Rock (the Town) and the National Park Service (NPS). The land 
        containing the reservoir was willed to the federal government 
        in 1908 upon the death of prominent local resident Moses Cone, 
        but was held in trust until its actual donation in 1949. In the 
        intervening years, Mr. Cone's widow allowed the Town to remove 
        water from a stream on the property and pipe it to the Town's 
        water system. The NPS issued the Town a Special Use Permit to 
        construct a dam on the stream in 1955, creating a small 
        reservoir.
          Both parties agree that the best long-term resolution of the 
        current situation would be to transfer the reservoir and its 
        management to the Town, in exchange for other lands which 
        support the mission and purposes of the Parkway.
          The approximately 192 acre parcel to be acquired by the NPS 
        is undeveloped land owned by the Town. It is desirable to the 
        National Park Service because it will provide a buffer between 
        the Blue Ridge Parkway and adjacent developed areas. It will 
        also protect scenic views and enhance recreational 
        opportunities on the Parkway.

    To ensure equity and transparency, S. 1767 will require that any 
agreement between the NPS and the Town comply with all laws, 
regulations, and policies regarding NPS land exchanges. This will 
require the NPS to conduct an appraisal of all relevant land, while 
providing the authority to the Secretary to adjust acreage totals to 
guarantee a fair exchange. The bill also requires the Secretary to make 
available a map of the exchanged lands for review by local 
stakeholders.
    Land acquired by the NPS through this legislation will be 
administered as part of the Blue Ridge Parkway, with the boundary of 
the Parkway automatically adjusted to reflect any new acquisitions. As 
the most visited unit of the National Park System, the Parkway welcomes 
more than 20 million visitors annually to North Carolina and Virginia. 
The Parkway's more than 450 miles of scenic views support an estimated 
$2.3 billion in local economic activity every year.
    As we look forward to celebrating the 75th anniversary of this 
national treasure, this land exchange is an excellent opportunity to 
enhance the Blue Ridge Parkway visitor experience at no cost to the 
federal government. Just the same, S. 1767 will ensure that the Town is 
able to continue to provide safe and reliable drinking water throughout 
the Blowing Rock community, protecting public health and helping to 
stimulate and sustain local economic development.
    For these reasons, I urge the Committee to review and approve 
S.1767 as quickly as possible, and look forward to working with 
Chairman Bingaman and Ranking Member Murkowski to expedite its 
consideration by the full Senate.
    Thank you once more for your efforts to consider the Blue Ridge 
Parkway and Town of Blowing Rock Land Exchange Act of 2009.

    Senator Burr. The bill enjoys unanimous support from the 
North Carolina Congressional Delegation and is vital to the 
town of Blowing Rock. This bill would allow Blowing Rock to 
gain ownership and control of their water source in exchange 
for land surrounding the Blue Ridge Parkway. This would provide 
the Parkway with additional recreational opportunities and 
protect scenic viewpoints. It's important to note that nothing 
included in the language of this bill will change hunting 
rights within any of the exchanged land.
    This bill is a win-win situation, for all involved. I look 
forward to taking another step toward its completion today. The 
mayor of Blowing Rock has written letters of support, which 
I've already put in the record, as well as the town manager, 
Scott Hildebrand.
    Mr. Chairman, once again I thank you and would remind you 
and my colleagues that the Blue Ridge Parkway is a unique 
treasure of this country. As it was constructed, there was very 
little thought put toward whether adjacent to the Parkway was 
private lands or public lands. Over the years, we have tried to 
work within the framework of the restrictions on the Blue Ridge 
Parkway to try to settle the distribution of land needed for 
surrounding communities. We have successfully done that through 
these land swaps. I think, in most cases, if not in all cases, 
actually, the beneficiary is the Parkway and the protection of 
that national treasure, because it gives us much more of a 
buffer to the Parkway and provides the communities as really 
willing partners with the Parkway's intent.
    I thank the chair.
    Senator Udall. I thank the ranking member for his comments.
    I would note for the record that the slowness with which I 
responded to his unanimous consent request is no indication of 
my deep and fervent support for this important measure. We have 
similar opportunities, I would point out, in the West, where 
land exchanges can be truly a win-win for everybody involved. I 
look forward to working with the ranking member to bring this 
bill to the full floor and get it to the President's desk as 
soon as we can.
    We now want to turn to Senator Kirk for any testimony he 
might have on these important Massachusetts bills. As a huge 
fan of John Adams and his extended family, I look forward to 
Senator Kirk's testimony, and look forward to working with him 
to move these bills to the floor of the Senate and on to the 
President's desk.
    Senator Kirk.

           STATEMENT OF HON. PAUL KIRK, U.S. SENATOR 
                       FROM MASSACHUSETTS

    Senator Kirk. Thank you very much, Mr. Chairman.
    I want to commend you, Chairman Udall and Senator Burr, for 
holding these hearings this afternoon, and commend also the 
National Parks Service for its extraordinary work in preserving 
so many important sites for history throughout our country.
    I'm here in appreciation, and I want to express my strong 
support, for four of the bills on today's agenda before the 
committee: S. 1405, S. 1413, S. Res. 275, and H.R. 2802. Each 
of these bills is important to my home State of Massachusetts, 
they highlight the prominent role of our State in the 
Revolutionary War, and each will make that history more vivid 
for visitors for centuries to come.
    The first of those is S. 1405, as you referred to, as the 
Longfellow House-Washington Headquarters National Historic Site 
Designation Act. S. 1405 will make a long overdue correction to 
the name of the, quote, ``Henry Wadsworth Longfellow House,'' 
close quote, in Cambridge. This bill will redesignate the site 
as the, quote, ``Longfellow House-Washington Headquarters 
National Historic Site,'' close quote, to recognize the 9 
months of the father of our Nation, during which he resided 
there, in 1775 and 1776, during the siege of Boston, the 
beginning of our war for independence.
    It was at the Longfellow House that General Washington 
created the Continental Army and successfully led the effort to 
force the British to evacuate the city.
    The property was designated a National Historic Site in 
1972. However, Washington's history at the site was not 
acknowledged at the time, and this bill will correct that 
oversight.
    As historian David McCullough has said, the Longfellow 
house, and I quote, ``is haunted by a cast of characters that 
is almost unrivaled by any structure in the country, with the 
possible exception of the White House and Independence Hall,'' 
close quote.
    Senators Kennedy and Kerry introduced S. 1405 in July, and 
I'm please to be a cosponsor now, and I urge the committee to 
approve it.
    The second bill I urge the committee to approve is S. 1413, 
Adams National Historical Park Boundary Addition Act of 2009. 
S. 1413 will expand the boundary of the Adams National Historic 
Park in Quincy, Massachusetts, to include the Quincy Homestead, 
a property closely associated with the family of our second and 
sixth Presidents, John Adams and John Quincy Adams.
    The current boundary of the park includes the Adams family 
home, but not the nearby Quincy homestead. Edmund Quincy II had 
the homestead built in 1686. Leading up to the American 
Revolution, it served as a meetingplace for John Adams, John 
Hancock, and other patriots. Five generations of Quincys, a 
family that also includes Oliver Wendell Holmes, lived in the 
homestead.
    The property was designated a National Historic Landmark in 
2005, and it is owned today by the National Society of the 
Colonial Dames of American, who have put great effort into 
restoring the property to make it fit for visitors. The 
Colonial Dames Society strongly supports this bill, because it 
will ensure that this remarkable property is preserved for 
generations to come.
    Senators Kerry and Kennedy sponsored this legislation, 
which I am pleased to cosponsor, as well. I urge the committee 
to approve it.
    Third, S. Res. 275, a resolution honoring the Minute Man 
National Historical Park on the occasion of its 50th 
anniversary. I'm pleased that the committee is also considering 
S. Res. 275, which commemorates the 50th anniversary of Minute 
Man National Historical Park, located in Lexington, Concord, 
and Lincoln, Massachusetts.
    Senator Kerry introduced the resolution on September 21, 
the date of the anniversary, and I'm proud to be a cosponsor.
    Minute Man Park is America's sacred ground. It is the place 
where Americans first stood up arms against the British, and 
put the Colonies on the path to independence. The park contains 
sites along Battle Row, where Minute Men and British soldiers 
fought during the first battle of the Revolution, including the 
Old North Bridge in Concord, where the ``shot heard round the 
world'' was fired.
    Congress recently approved legislation adding the farm of 
Colonel Jones Barrett, in Concord, to the Park. Barrett was a 
leader of the colonial militia at the time, and munitions of 
the militia were hidden on his farm. Finding those munitions 
was a key objective of the British March on Concord and 
Lexington.
    This resolution is an important recognition of the Park's 
special significance in the Nation's history, and I urge the 
committee to approve it.
    Finally, Mr. Chairman, I urge the committee's approval of 
H.R. 2802, to provide for an extension of the legislative 
authority of the Adams Memorial Foundation to establish a 
memorial to President John Adams in Washington, DC. H.R. 2802 
will grant a 7-year extension to the Adams Memorial Foundation 
to continue its work to identify an appropriate site near the 
National Mall for a monument to our second president. Without 
this extension, the current authorization, enacted in 2001, 
will expire later this year. The board of the Foundation 
includes the man who literally wrote the book on John Adams, 
David McCullough. The Foundation is proceeding with a review of 
possible memorial site locations. The brief extension sought in 
H.R. 2802 will enable this important work to continue so that 
an appropriate location can be selected and the design and 
construction work can begin.
    Congressman Bill Delahunt is the sponsor of this bill, 
which passed the House in September. I urge the committee to 
approve it, as well.
    I'm grateful, Mr. Chairman, to you and to your committee, 
for the opportunity to express my views, and I look forward to 
working with each of you to enact these important bills for the 
State of Massachusetts and for the Nation.
    Thank you very much, Mr. Chairman.
    Senator Udall. Thank you, Senator Kirk.
    We know how busy your schedule is, and I personally take it 
as a statement of how important this is to you, that you took 
time to come today and testify.
    I don't have any questions.
    I want to turn to Senator Burr to see if he has any 
questions. He does not.
    If you have any further statements for the record, we'd be 
happy to receive those.
    But, again, thank you for taking the time to testify.
    Senator Kirk. Thank you for your courtesies, Mr. Chairman.
    Senator Burr, I thank you very much.
    Senator Udall. Thank you.
    We will take a short break, while we're joined by the 
Administration witness, Katherine Stevenson, who is the 
assistant director of business services at the National Parks 
Service.
    So, Ms. Stevenson, if you'd join us.
    [Pause.]
    Senator Udall. Ms. Stevenson, the floor is yours. We look 
forward to your testimony.

   STATEMENT OF KATHERINE H. STEVENSON, ASSISTANT DIRECTOR, 
  BUSINESS SERVICES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Stevenson. Thank you very much, Mr. Chairman. Thank you 
for the opportunity to appear before you to offer the views of 
the Department of the Interior on the bills before you today.
    I'll summarize my remarks, although I'm sure you'd like me 
to read the full testimony of each of them. But, I will ask 
that the full text be entered into the record.
    The Department supports--thank you--S. 1369 ***AGENDA HAS 
S. 1369***, which would designate 15.1 miles of the Molalla 
River and 6.2 miles of the Table Rock fork of the Molalla, as 
components of the Wild and Scenic Rivers System.
    Ed Robertson, BLM assistant director for renewable 
resources and planning, is accompanying me today, and he'll be 
happy to answer any questions you might have on this bill.
    The Department supports redesignation of the Longfellow 
National Historic Site as the Longfellow House-Washington 
Headquarters National Historic Site, as authorized by S. 1405.
    On the other hand, the Department opposes S. 1413. We 
believe that inclusion of the Quincy House is inconsistent with 
the purposes for which the Adams National Historical Park was 
designated.
    The Department supports S. 1767, which would authorize a 
land exchange between the Blue Ridge Parkway and the town of 
Blowing Rock, North Carolina.
    We also support H.R. 2802, which would extend the authority 
of the Adams Memorial Foundation until December 2, 2013.
    The Forest Service supports H.R. 3113 that would authorize 
a study of a segment of the Elk River in Pocahontas County, 
West Virginia, for its eligibility as an addition to the 
National Wild and Scenic Rivers System.
    Finally, the Department supports H.R. 1287 that would 
authorize the Secretary to enter into an agreement with the 
Porter County Convention Recreation and Visitor Commission to 
develop a partnership plan including cooperative management of 
a newly constructed visitor facility and the sharing of 
operational activities.
    Mr. Chairman, this concludes my prepared remarks. I'd be 
happy to answer any questions you might have.
    [The prepared statements of Ms. Stevenson follow:]
   Prepared Statement of Katherine H. Stevenson, Assistant Director, 
  Business Services, National Park Service, Department of the Interior
    Thank you for inviting the Department of the Interior to testify on 
S. 1369, the Molalla River Wild and Scenic Rivers Act. The Bureau of 
Land Management (BLM) supports S. 1369.
                               background
    The Molalla River begins its journey to the sea on the western 
slopes of the Cascade Mountains of Oregon. At an elevation of 4,800 
feet, the Molalla flows undammed for 49 miles west and north until it 
joins the Willamette River. For years, the Molalla suffered from too 
much negative attention from its visitors, including vandalism. To 
address these problems, local residents joined together several years 
ago and formed the Molalla River Alliance (MRA). The MRA, a nonprofit 
all volunteer organization, has over 45 public and private partners, 
including Federal, State, and local government agencies, user groups, 
and conservationists. Working cooperatively with BLM's local field 
office, the MRA has provided the Molalla the care it needed. Today, we 
are pleased that this subcommittee is considering designating 
approximately 21 miles of the river as a component of the National Wild 
and Scenic Rivers System.
    The Molalla River is home to important natural and cultural 
resources. Protection of this watershed is crucial as the source of 
drinking water for local communities and the important spawning habitat 
it provides for several fish species, including salmon and steelhead. 
Within an hour's drive of the metropolitan areas of Portland and Salem, 
Oregon, the Molalla watershed provides significant recreational 
opportunities for fishing, canoeing, mountain biking, horseback riding, 
hiking, hunting, camping, and swimming. A 20-mile hiking, mountain 
biking, and equestrian trail system draws over 65,000 visitors 
annually.
                                s. 1369
    S. 1369 proposes to designate 15.1 miles of the Molalla River and 
6.2 miles of the Table Rock Fork of the Molalla as components of the 
National Wild and Scenic Rivers System. In earlier planning analyses, 
the BLM evaluated the Molalla River and the Table Rock Fork of the 
Molalla River and determined that most of these two rivers should be 
considered for designation as wild and scenic rivers. As a result, the 
designation called for in S. 1369 would be largely consistent with 
management currently in place, and would cause few changes to BLM's 
current administration of most of this area. The 5,500-acre Table Rock 
Wilderness, designated by Congress in 1984, is embraced by the Molalla 
and Table Rock Fork, and designation of these river segments would 
reinforce the protections in place for the wilderness area.
    Wild and scenic rivers are designated by Congress in one of three 
categories: wild, scenic, or recreational. Differing management 
proscriptions apply for each of these designations. S. 1369 specifies 
that these river segments be classified as recreational. This 
classification is consistent with the strong recreational values of 
this area, as well as the presence of roads along the course of the 
river segments and numerous dispersed campsites along its shorelines.
                               conclusion
    Thank you for the opportunity to testify in support of these 
important Oregon designations. The Department of the Interior looks 
forward to welcoming these units into the BLM's National Landscape 
Conservation System.
                                s. 1405
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on S. 1405 to redesignate the 
Longfellow National Historic Site in Massachusetts as the Longfellow 
House-Washington Headquarters National Historic Site.
    The Department supports enactment of this legislation.
    On June 16, 1775, George Washington accepted the appointment of the 
Continental Congress as commander of the yet-to-be-formed Continental 
Army. He immediately journeyed north to take command of New England 
militia troops on July 3, 1775, and conduct a siege of British-held 
Boston, Massachusetts. A house, abandoned by Loyalist John Vassall, on 
Brattle Street in Cambridge became his headquarters for nine months 
during the conflict. Vassall had been forced to flee the house shortly 
after the Battles of Lexington and Concord. Washington's wife Martha, 
along with other family members and servants from Virginia, joined him 
there for four of those months.
    From a ground floor office in the house, Washington struggled with 
the numerous problems of his new command. Among these were defending 
the region against the well-trained British troops occupying Boston, 
bringing discipline to the untrained militia, and supplying his army 
with arms and the accoutrements of war. It was here, too, that he gave 
command to Benedict Arnold of a small force to attack Quebec over the 
mountains of Maine and confronted Dr. Benjamin Church, a patriot 
leader, with evidence that he was a British spy. From Cambridge, 
Washington provided for the development of a network of spies in Boston 
to report on British plans and movements. He also approved the arming 
and use of vessels to confront British supply ships.
    The siege proved to be successful and the British withdrew from 
Boston without the destruction of lives and property that a major 
battle would have caused. For his efforts, Washington received a medal 
from Congress and an honorary degree from Harvard.
    Henry Wadsworth Longfellow and his wife Fanny received the house on 
Brattle Street as a wedding gift from his wife's father in 1843. Both 
expressed pride in owning the house that had been Washington's 
headquarters. Fanny Longfellow wrote:

           . . .we are full of plans and projects with no desire, 
        however, to change a feature of the old countenance which 
        Washington has rendered sacred.

    Longfellow relished conducting tours of the house when tourists 
would inquire about the period when it was Washington's headquarters. 
The Longfellows also collected Washington memorabilia, which are 
prominent among the furnishings they left and which are preserved today 
at the national historic site.
    Public Law 92-475, which authorized the establishment of the 
national historic site in 1972, recognized the role that the house 
played as the headquarters of General George Washington during the 
siege of Boston between 1775 and 1776. Redesignation of the national 
historic site will better enable visitors to identify the importance of 
the full history of the resource and appreciate Longfellow's veneration 
of George Washington.
    The appropriateness of redesignating the name of the national 
historic site was perhaps best expressed by Henry Wadsworth Longfellow, 
himself, from the same ground floor office used by Washington. In 1845, 
in his poem entitled ``To a Child'', he wrote this passage:

          Once, ah, once, within these walls, One whom memory oft 
        recalls, The Father of his Country, dwelt. And yonder meadows 
        broad and damp The fires of the besieging camp Encircled with a 
        burning belt. Up and down these echoing stairs, Heavy with the 
        weight of cares, Sounded his majestic tread; Yes, within this 
        very room Sat he in those hours of gloom, Weary both in heart 
        and head.

    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or members of the committee may have regarding 
the proposed redesignation.
                                s. 1413
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1413, a bill to include the Quincy Homestead in Quincy, Massachusetts, 
within the boundary of Adams National Historical Park.
    The Department opposes S. 1413, consistent with a 1994 National 
Park Service Special Resource Study that did not recommend adding this 
property to the Adams National Historical Park.
    The Quincy Homestead was designated a National Historic Landmark in 
2005 based on its architectural significance; its association with four 
generations of Edmund Quincys during the 17th and 18th centuries; its 
long association with people of learning and mercantile achievement; 
its use as a progressive farm in the 18th century; its path-breaking 
early restoration by Joseph Everett Chandler in 1904; and its 
association with the Society of Colonial Dames of America. The 
Homestead is also known as the ``Dorothy Quincy House.'' Dorothy 
Quincy, a daughter of Edmund Quincy IV, the last Quincy to occupy the 
Homestead, grew up in the dwelling and married John Hancock. The 
Homestead is owned by the Commonwealth of Massachusetts and operated 
through agreement by the Society of Colonial Dames of America as a 
house museum.
    The Quincy families were among the significant families of 
Massachusetts during their tenures of ownership of the property. All 
four generations associated with the site and the house played 
important roles in local and colonial military and political 
activities. Edmund I (1602-1635), who immigrated to Boston from 
England, was a Boston representative in the General Court of the 
Province. Edmund II (1628-1696) was the first major and lieutenant 
colonel in Braintree, Massachusetts, and representative to the 
Massachusetts General Assembly. Edmund III (1681-1738) was Judge of the 
Superior Court of Judicature and a member of the Board of Overseers of 
Harvard University. Edmund IV (1703-1788) was successful in partnership 
with others in mercantile trade.
    The Homestead, during the period of occupancy by the Quincy 
families, went through a series of phases of construction, with the 
first being undertaken by Edmund Quincy II in 1686. Additions and 
alterations proceeded in the period 1706-1708 and again in 1737 by 
Edmund Quincy III. Circa 1750, Edmund Quincy IV carried out extensive 
remodeling of the interior of the structure. The property was sold by 
the family in 1763.
    In 1994, pursuant to Public Law 101-512, the National Park Service 
completed a Special Resource Study of a number of historic resources in 
Quincy, Massachusetts. The Quincy Homestead was among the resources 
analyzed during the course of the study. The study did not recommend 
that any resources investigated become units of the National Park 
System or that the Quincy Homestead be added to the Adams National 
Historical Park. No information has come to the Department's attention 
that would alter the conclusions of the Special Resource Study.
    The purpose of Adams National Historical Park is to preserve and 
protect the grounds, homes and personal property of four generations of 
the Adams family and to use these resources to interpret the history 
they represent and to educate and inspire current and future 
generations. We do not believe that the Quincy Homestead is related to 
the purposes for which the park was established, nor does it appear to 
have any direct relationship with the Adams family, other than the fact 
that John Adams was once a suitor to Dorothy Quincy and a visitor to 
the Homestead. While Abigail Adams had Quincy family ancestry on her 
mother's side, she never lived at the Homestead. There does not appear 
to be any direct connection between John, Abigail, John Quincy, or 
Louisa Adams and the Homestead that would categorize the structure as a 
closely related resource to those now within the boundary of the park. 
Since the Homestead is currently owned by the Commonwealth of 
Massachusetts and operated as a house museum by the Society of Colonial 
Dames of America, we do not see a need for management of the resource 
by the National Park Service.
    Although there is support at the county and local levels for 
inclusion of the Quincy Homestead into the National Park System as part 
of Adams National Historical Park, we cannot support the action without 
a finding that the resource meets congressionally required criteria for 
designation. Mr. Chairman, this concludes my testimony. I am prepared 
to answer any questions from members of the Committee.
                         s. 1767 and h.r. 1121
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1767 and H.R. 1121, bills to 
authorize a land exchange to acquire lands for the Blue Ridge Parkway 
from the Town of Blowing Rock, North Carolina, and for other purposes.
    The Department supports this legislation. S. 1767 and H.R. 1121, 
which are identical in substance, would authorize the Secretary of the 
Interior to exchange approximately 20 acres of land at the Moses H. 
Cone Memorial Park, a popular recreational area located within the 
boundary of the Blue Ridge Parkway, for approximately 192 acres of land 
owned by the Town of Blowing Rock (Town). This proposed exchange would 
be mutually beneficial to the National Park Service (NPS) and the Town.
    In 1949, the Moses Cone Hospital Trust deeded the 3,500-acre Moses 
H. Cone Memorial Park to the Blue Ridge Parkway. This property had been 
held in trust by the hospital from 1911 until 1949 under a deed from 
Bertha Cone, the property's owner. During that period, Mrs. Cone gave 
permission to the Town of Blowing Rock to install a pipeline from the 
Town to a creek on the property. In 1955, the NPS issued a permit to 
the Town allowing them to dam the creek to form a reservoir, which 
continues to be used by the Town as its primary source of drinking 
water.
    The Town and NPS officials at the Blue Ridge Parkway have long been 
in agreement that it would be better for the Town to own and manage 
their municipal water supply, rather than accessing it through the NPS 
permitting process. Several years ago, NPS and the Town sought to 
initiate an administrative land exchange. In November 2003, the Town 
purchased a 192-acre tract of land adjacent to the Cone Memorial Park 
in anticipation of exchanging this land for approximately 20 acres of 
land within the Cone Memorial Park that would include the reservoir and 
a small amount of land that the Town could flood in order to increase 
the size of the reservoir. The proposed exchange would give the Town an 
unencumbered water supply and the potential for some expansion of 
capacity, while the NPS would receive a 192-acre buffer tract that 
would provide recreational opportunities and preservation and 
protection of resources at the Blue Ridge Parkway.
    We believe that this exchange, which has been underway for several 
years, would be facilitated and hastened through passage of S. 1767 or 
H.R. 1121, authorizing bills that establish clear expectations for both 
the Town and the NPS regarding the exchange process.
    When the House Resources Committee considered H.R. 1121 on July 9, 
2009, the committee adopted amendments recommended by the Department to 
allow the acreage amounts in the bill to be adjusted to equalize land 
values and to provide a three-year time frame for the exchange. H.R. 
1121, as amended, passed the House on July 27, 2009. The changes made 
to the H.R. 1121 are reflected in S. 1767.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
                               h.r. 2802
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 2802, a bill to provide for an extension of 
the legislative authority of the Adams Memorial Foundation to establish 
a commemorative work in honor of former President John Adams and his 
legacy.
    The Department supports H.R. 2802 as passed by the House.
    H.R. 2802 would amend Public Law 107-62 to extend to December 2, 
2013 the authorization for establishing a memorial in the District of 
Columbia or its environs to honor President John Adams and his legacy. 
In addition to providing an extension of authority, H.R. 2802 also 
contains technical amendments to the original authorizing legislation, 
Public Law 107-62, enacted in 2001, which contains outdated references 
to the Commemorative Works Act (CWA). The references currently cited in 
Public Law 107-315 refer to the CWA as codified under 40 U.S.C. 1001 et 
seq. The CWA, however, was recodified under 40 U.S.C. 8901 et seq. on 
August 21, 2002 (Public Law 107-217). The proposed amendments in H.R. 
2802 would update and correct the references to the CWA.
    The authority to establish the John Adams memorial was originally 
approved by Congress on November 5, 2001. The Adams Memorial Foundation 
(Foundation) requested that the subject of the commemoration be 
determined to be of preeminent and lasting significance to the Nation 
so that the proposed memorial might be placed in Area I, a request that 
was considered favorably by the National Capital Memorial Advisory 
Commission in 2002 and recommended to Congress. P.L. 107-315, enacted 
on December 2, 2002, granted the Foundation that additional authority 
to seek a site for their memorial within Area I. Authorizations under 
the CWA have a seven-year sunset period which extends from the date on 
which the Area I authority was granted to allow for time to obtain a 
building permit and begin construction of a memorial. As the Foundation 
has not yet been able to select a site, design the memorial, receive 
the requisite approvals, or raise sufficient funds for the construction 
of the memorial, a permit could not be granted. Therefore, the 
authority to establish the memorial would expire on December 2, 2009. 
However, Section 130 of the Conference Report to Accompany H.R. 2996--
the Department of the Interior, Environment, and Related Agencies 
Appropriations Act, 2010, extends the authority until September 30, 
2010. H.R. 2802 would extend to December 2, 2013, the authority to 
establish a commemorative work to honor former President John Adams, 
his wife Abigail Adams, and former President John Quincy Adams and 
their legacy of public service.
    With an additional four years of legislative authority, the 
Foundation should be in a viable position to achieve site and design 
approvals as well as to raise the minimum 75 percent of the funds 
sufficient to build the memorial. Should they meet these thresholds, 
the Secretary of the Interior may exercise his authority under the CWA 
to grant an additional three-year administrative extension to allow the 
Foundation to finalize construction documents and raise the balance of 
necessary funding.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members may have.
                               h.r. 3113
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the Administration's views on H.R. 3113.
    This bill amends section 5(a) of the Wild and Scenic Rivers Act, 
Public Law 90-542 (16 U.S.C. 1271--1287) to designate a segment of Elk 
River in Pocahontas County, West Virginia, for study as a potential 
addition to the National Wild and Scenic Rivers System. The segment 
that would be authorized for study lies entirely within the Monongahela 
National Forest, and is an approximate five-mile segment of the Elk 
River from the confluence of the Old Field Fork and the Big Spring Fork 
in Pocahontas County to the Pocahontas and Randolph County line.
    The bill provides that the study determine if the river is 
qualified for designation and, if so determined, evaluate the potential 
benefits and consequences of its designation, including an assessment 
of whether its addition to the National Wild and Scenic Rivers System 
is the best method to protect river values.
    This section of the Elk River flows through a small canyon with a 
parallel, non-operational railroad the only sign of human activity. The 
overall appearance of the river corridor from the stream is one of 
hardwood forests and large boulders with occasional views of the 
railroad. The river is dominated by many pools, separated by stretches 
of riffles. The stream is popular with anglers and supports populations 
of wild brown and rainbow trout; populations of native brook trout 
occur in the tributaries within one-quarter mile of the main channel. 
Karst limestone outcrops along the river bed create the conditions that 
cause the river to ``sink'', or go underground, during low flows.
    Of the land contained within a quarter mile of each side of the 
river segment, two-thirds is in federal ownership all under the 
jurisdiction of the U.S. Forest Service, an agency of the Department of 
Agriculture, with the remaining acreage in private ownership for a 
total of approximately 1500 acres. The bill provides that the study 
address both Federal and non-Federal lands.
    The Administration supports this legislation as it provides an 
opportunity to work with interested parties including state and local 
governments and landowners to identify river values and thoughtfully 
evaluate whether and, if desirable, how these values should be 
protected.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                               h.r. 1287
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 1287, a bill to authorize the Secretary of the 
Interior to enter into a partnership with the Porter County Convention, 
Recreation and Visitor Commission regarding the use of the Dorothy 
Buell Memorial Visitor Center as a visitor center for the Indiana Dunes 
National Lakeshore, and for other purposes.
    The Department supports H.R. 1287 as passed by the House with 
technical amendments.
    Indiana Dunes National Lakeshore was established as a unit of the 
National Park System in 1966. It lies on the southern tip of Lake 
Michigan and covers some 15,000 acres with 15 miles of shoreline. In 
1998, the national lakeshore and the Porter County Convention, 
Recreation and Visitor Commission (PCCRVC) began to explore the concept 
of a joint visitor center to be shared by the PCCRVC, the national 
lakeshore, and the Indiana Dunes State Park. At that time, both the 
national lakeshore and the PCCRVC suffered from low visitation at their 
respective visitor centers due to their poor locations away from the 
primary thoroughfares. Because of their location, size, and layout, the 
national lakeshore's 1997 General Management Plan recommended 
relocating the visitor center to the more heavily traveled IN 49 
corridor.
    A partnership to acquire land for a new site was initiated. A more 
prominent location outside the national lakeshore but within the 
primary travel corridor to the dunes was selected. Using a series of 
Transportation Enhancement grants, the PCCRVC purchased the land, which 
is located approximately three quarters of a mile south of the national 
lakeshore boundary on IN 49, the principal north/south artery into the 
national lakeshore and secured a contract for construction. The new 
Dorothy Buell Memorial Visitor Center was completed in October 2006.
    The NPS currently has an interim lease of the space in the new 
visitor facility and is in the process of securing a General Service 
Administration lease agreement for offices, storage, exhibits, 
bookstore, and a theatre. The payments for this lease come from funds 
in the park's authorized annual operating budget.
    H.R. 1287 would authorize the Secretary of the Interior to enter 
into an agreement with the PCCRVC that would outline the terms of the 
partnership, including cooperative management of the new visitor 
facility and sharing of operational activities. The two parties will 
jointly plan and staff the new visitor center and offer ``one-stop 
shopping,'' with exhibits and theater space to educate visitors about 
the resources found in the park, aspects of threatened and endangered 
species management, habitat preservation, and wetlands restoration.
    H.R. 1287 would also authorize $1,500,000 to plan, design, 
construct, and install exhibits to be placed in the new facility for 
visitor information and education. The space leased by the National 
Park Service (NPS) includes room for exhibits, offices, a theatre, and 
a bookstore. All funds are subject to NPS priorities and the 
availability of appropriations.
    H.R. 1287 also would amend Section 19 of Public Law 89-761 to 
authorize the Secretary of the Interior to accept donated lands that 
are considered contiguous to Indiana Dunes National Lakeshore but 
physically separated from the boundary by a public or private right-of-
way, such as a road, railroad, or utility corridors.
    The park is segmented with numerous isolated parcels. The northern 
portion of Indiana is crisscrossed with numerous interstate highways, 
oil and gas pipeline corridors, and electrical lines. A number of these 
rights of way exist within the national lakeshore. Several landowners 
have offered to donate land adjacent to the park (separated by utility, 
roadways, and rail corridors), but the park's ability to accept such 
lands is ambiguous. It is unclear whether the NPS can accept these 
lands under the minor boundary revision authority of the Land and Water 
Conservation Fund Act of 1965. The bill would clarify this terminology 
as it relates to the Indiana Dunes National Lakeshore and allow the 
park to accept donated lands to further the purposes of the park unit 
when they adjoin the park's boundary.
    Mr. Chairman, thank you for the opportunity to comment. We look 
forward to working with the Committee to provide technical amendments 
to the bill. This concludes my prepared remarks and I will be happy to 
answer any questions you or other committee members might have.

    Senator Udall. Thank you, Ms. Stevenson. Thank you for your 
very succinct remarks. I know Senator Burr and I both 
appreciate the additional testimony you've provided to us, and 
we will pore over it as we move forward.
    I'm going to recognize myself for 5 minutes and then turn 
to Senator Burr for questions he might have.
    You've testified that the Department of Interior opposes S. 
1413, which would add the Quincy Homestead property to Adams 
National Historical Park. I'd like to get a better 
understanding of your specific concerns.
    The Homestead's been designated as a National Historic 
Landmark. Presumably that designation means the property is 
considered to be nationally significant. Does that mean the 
property is also considered nationally significant for park 
purposes?
    Ms. Stevenson. The answer to that is yes. ``National 
significance'' is a universal term and is part of the criteria 
for consideration for addition as a unit of the system.
    Our concern with the Quincy House is that the 
identification of the Adams National Historical Park is focused 
on the significance of the Adams family, exclusively, and 
doesn't include other members of the community. So, that's what 
our objection is.
    Senator Udall. Let me follow on. My understanding is that 
the 1994 Special Resource Study noted that the Quincy property 
possessed an unusual number of historic sites that deserved to 
be protected, preserved, and interpreted for the public. Does 
the Park Service still agree with that assessment?
    Ms. Stevenson. Yes. Quincy is a very important historic 
town, and I don't think anybody in the Park Service would 
disagree that it's something that should be interpreted.
    Senator Udall. So, to return to my first question and the 
point you made, you believe that the Quincy homestead doesn't 
have a direct tie to the Adams family and, therefore, the Adams 
National Historic Park, and that's the----
    Ms. Stevenson. It's for Park purposes.
    Senator Udall [continuing]. On which you rest your 
opposition.
    Ms. Stevenson. Yes, sir.
    Senator Udall. I wanted to make sure you had a chance to 
clarify that, for the record.
    Let me move to the Adams Memorial Legislative Authority 
that's proposed in H.R. 2802. Your statement indicates the 
Parks Service believes that, with an additional 4 years of 
authority, that the Foundation would be able to raise the 
necessary funds for the memorial. Do you have an estimate of 
what the total costs would be for the memorial and what 
progress the Foundation has had in raising the funds, to date?
    Ms. Stevenson. The Foundation has just been reinvigorated. 
Although they haven't chosen a site, as yet, they have let a 
contract for site selection. We were waiting for the results of 
that, and for their preliminary scoping for the design itself 
and for the site, in order to be able to get an estimate of 
what the final cost would be.
    Senator Udall. Do you know why the Foundation has not been 
able to reach any of its legislative milestones? For example, 
why there's not a site approval after 7 years since the 
memorial was authorized?
    Ms. Stevenson. It's my understanding that they got a slow 
start, but that recently it's been, as I said, reinvigorated. 
I'm sure that the addition of David McCullough will make a huge 
difference to them.
    Senator Udall. Final question on H.R. 2802. In 2003, 
Congress amended the Commemorative Works Act and incorporated a 
recommendation made by the Department of Interior. The 
amendment authorized the Secretary to extend the 7-year 
legislative authority for a memorial for an additional 3 years 
if the organization building the memorial had achieved certain 
objectives, namely final design approvals in place, and having 
raised 75 percent of the necessary funding. In this case, it 
appears the Foundation has not met either standard and the 
Department's now supporting an authorization timeline of 11 
years. Is this an acknowledgment that the requirements in the 
Commemorative Works Act are still unworkable?
    Ms. Stevenson. No, sir. There's been a variation, in the 
amount of time necessary for people to raise the money and to 
be able to construct the memorial. The smaller the memorial--
for example, the memorial to the victims of communism was able 
to be done within the 7-year period. We've had other examples--
the Martin Luther King Memorial, for example--that haven't been 
able to get enough momentum during the first period. We believe 
that the 7-year period is a very reasonable period, and there 
will be exceptions to that period, and we thought we'll deal 
with them on a one-by-one basis.
    Senator Udall. OK. I appreciate clarification of the 
Department's point of view, and I will continue to consider 
whether this is, on a case-by-case basis, the way we should 
proceed, or whether that 7-year timeline does, in fact, make 
sense. Thank you for your testimony. Thank you, for answering 
my questions.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Welcome, Ms. Stevenson.
    Three very specific questions. First one deals with the 
Adams National Historic Park addition. I understand what the 
evaluation has been by the Park Service, that the addition 
would be inconsistent with the original intent of the Park 
Service preservation of the Adams property.
    Let me ask you a bigger question, if I could. I don't 
believe this is the last expansion of a park request that 
Senator Udall and I will see. Do you believe it's time for the 
Park Service to focus their efforts on reducing the overall 
maintenance backlog before we look at the expansion of sites 
and, quite simply, the addition of shifting something from the 
maintenance obligations of the State, in this case, over to the 
Federal Government?
    Ms. Stevenson. There's no doubt that the maintenance 
backlog is a very important aspect and that we have to spend 
time and effort on it. However, there are aspects of American 
history and aspects of natural history in America that need to 
be preserved at the same time that we're making sure that we 
preserve the property we already have. To ignore that would be 
a big mistake, because we could lose substantial portions of 
things that the American public could never regain. So, it's a 
very difficult balance, one that we work with the Congress on, 
on a continuing basis. But, it would be ill-advised not to at 
least consider additions to the system.
    Senator Burr. I appreciate your answer. The reason that I 
asked you a question like that was to, for the record, prove 
that there's been a great deal of thought and process that's 
gone into the decision as to whether this should be included. 
In this particular case, it wasn't driven by anything other 
than the assessment that this really didn't fit. That's 
important.
    On the legislative authority, the bill's 7 years; the Park 
Service is comfortable with 4 years. Again, a little bit bigger 
question. If we extended this by 4 years, and we came back to 
the table, 4 years from now, asking for another extension 
because what was reinvigorated was no longer reinvigorated, and 
we were--at what point do we cut this off?
    Ms. Stevenson. I think we----
    Senator Burr. I dare say, this is not the first one of 
these we've done, either.
    Ms. Stevenson. No. Some have expired, and we've had to say 
goodbye. But, I think we have great hopes that this will not be 
one of those and that, with the leadership of the Foundation, 
that it will get off the ground. If we have to come back for an 
extension--and I'm not saying that that's impossible--that 
we'll see great advancement in the planning and in the 
fundraising so that we can say, with even more surety, that 
this memorial will be built.
    Senator Burr. I'm certainly not opposed to the 4-year 
extension, and I hope you will convey to those reinvigorated 
folks that the Park Service will watch for the progress, and 
measure that progress, between now and the end of this period.
    As it relates to H.R. 1287, the Indian Dunes National 
Lakeshore Visitor Center, I'm sure this is probably a--one, a 
beneficial partnership for us to join into. I'm sure that the 
$1.5 million for design, construction, and to install the 
exhibits for the visitor center is an appropriate amount. Let 
me focus, if I can, on the $70,000 per year needed to rent the 
space. No. 1, can you assure us that that is an appropriate 
rental amount for the amount of space that we're going to take 
from the visitor center? No. 2, can you assure us that that 
$70,000 obligation is going to come from the annual operating 
budget designated for that region, versus new appropriations?
    Ms. Stevenson. I have been assured by the superintendent 
that the payment of the $70,000 will come from the operating 
budget of the park unless GSA--General Services 
Administration--steps in to take over the lease. The people who 
negotiate lease prices in the Park Service are very experienced 
in negotiating these, and I hesitate to say ``cutthroat,'' but 
I would say that they are aggressive in protecting the 
taxpayers' dollar.
    Senator Burr. Let me ask for a little further detail, if I 
can. If you don't know this, would you supply it to the 
subcommittee? The square footage of the overall visitor center.
    Ms. Stevenson. I'm sorry, I don't know that.
    Senator Burr. Then, of that overall square footage, how 
much square footage would be devoted to the Park Service, for 
the purposes of Park Service use?
    Ms. Stevenson. I don't know that, either. I'll be happy to 
provide it.
    [The information referred to follows:]

    The new Indiana Dunes National Lakeshore visitor center is 12,000 
square feet. The National Park Service presently has an approved lease 
agreement authorized by the General Services Administration to occupy 
half of the square foot facility, or 6,000 square feet for exhibits, 
offices, a bookstore, and a theater.

    Senator Burr. I appreciate it.
    I thank the chair.
    Senator Udall. I thank the ranking member.
    Ms. Stevenson, if you don't have any other comments, I'm 
going to adjourn the hearing. I want to thank you for your 
testimony.
    There may be additional questions submitted for the record. 
If so, we will forward them on to you.
    The hearing record will remain open for 2 weeks, for any 
additional comments.
    The hearing is adjourned.
    [Whereupon, at 2:58 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Michael Moody, President, Molalla River Alliance, on S. 
                                  1369
    The Molalla River is an Oregon natural treasure. It is vital to 
local communities in Oregon's Willamette Valley. Among other 
attributes, the Molalla River is the primary drinking water source for 
the 20,000 citizens of the cities of Molalla and Canby.
    However, for far too many years the Molalla River corridor has been 
wracked with destructive and inappropriate human behavior including

  <bullet> Extensive dumping
  <bullet> Littering
  <bullet> Vandalism
  <bullet> Violence
  <bullet> Drug use and underage drinking parties
  <bullet> Illegal camping
  <bullet> Human waste
  <bullet> Degradation of the health of the fishery
                       the molalla river alliance
    These unacceptable activities prompted creation of an unprecedented 
and broad-based local collaboration. Established in early 2008, the 
Molalla River Alliance (``Alliance'') is an all-volunteer coalition of 
more than 45 non-profit civic and conservation groups, regional, local, 
state and federal agencies, numerous user groups and a rapidly growing 
list of individual conservationists and property owners.
    Over the past year, the Alliance has evolved into an important 
community forum for improving the safety and quality of the Molalla 
River Recreation Corridor. The Alliance initiated and leads efforts to 
secure Wild and Scenic Rivers legislation. The Alliance also was the 
impetus for a much-needed increase in law enforcement in the Corridor, 
resulting in a dramatic and sustained decline in lawless and 
inappropriate behaviors.
    The key goals of the Molalla River Alliance are to preserve water 
quality of the river, sustain the wildlife, fish and plants that 
inhabit its watershed, while promoting a safe and healthy environment 
that encourages diverse enjoyment of the recreation area, including 
tourism and family-friendly activities.
    The Alliance has taken a leading role in galvanizing numerous 
stakeholders, scientists and policy makers whose commitment first is to 
the health of the river and its ecosystems, for consequential enjoyment 
by all people.
    The Alliance has successfully forged a productive partnership of 
diverse, divergent, and frequently opposing groups such as wild fish 
advocates sitting next to hatchery fish advocates; anti-logging 
advocates sitting next to timber growers; hunters sitting next to horse 
riders and hikers; and, fly fishermen sitting next to bait fishermen.
    This group of non-traditional allies works because all have found a 
common bond, which is the shared passion for this storied river.
    For these efforts to be successful Alliance members endorse an 
``ecosystem-based management'' approach which simply means it places 
benefits to the river above those of any single species, activity, or 
group, including humans. No goal or priority of the Molalla River 
Alliance favors the interests of any single group or individual.
    The Alliance is confident its efforts represent a rare opportunity 
to safeguard and preserve in perpetuity an ecological, geological and 
historical treasure, offering myriad recreational opportunities 
conveniently accessible to an area population approaching 2 million 
people.
                           the molalla river
    The Molalla River supports bountiful ecosystems and offers year-
round recreational opportunities within an hour's drive of a major 
metropolitan area. It provides extensive native fish habitat including 
critical cold tributary spawning streams. It is home to wild winter 
steelhead and salmon runs, an abundance of wildlife, and geological and 
cultural wonders.
    From its headwaters beyond the Table Rock Wilderness in the Cascade 
Mountain Range, the crystal-clear and biologically diverse Molalla 
River originates in coniferous forests and tumbles through private and 
public forests and agricultural lands to its confluence with the 
Willamette River approximately 53 miles away.
    The Molalla River cuts through basalts and lava, forming deep 
canyons and beautiful rock out-crops including columnar rosettes and 
basalt columns which can be seen on the canyon walls. Carbon dating 
fossil leaves has placed the Molalla formation in the upper Miocene 
period, or 15 million years ago.
    The Molalla River and its watershed support vital fish habitats, 
including native winter steelhead and salmon runs, resident rainbow and 
cutthroat trout, and a naturalized population of Coho salmon. The upper 
river and its major tributaries provide critical spawning and rearing 
habitat.
    Distinct populations of Molalla River steelhead and salmon are 
listed as 'threatened' under the Endangered Species Act.
    This area also serves as an important wildlife corridor containing 
breeding and rearing habitat for northern spotted owl, pileated 
woodpecker, red tree vole, red-legged frog and pacific giant 
salamander. It provides habitat for bears, elk, cougars, bobcat, deer, 
beaver, otter, hawks, osprey and both golden and bald eagles.
                     recreational and cultural uses
    The Molalla River Recreation Corridor is also of significant 
cultural, historic and recreational significance. Formerly the site of 
working steam donkeys, railroads and logging camps, today it offers 
year-round recreational opportunities.
    Annually, thousands of recreationalists visit the Corridor for 
hiking, kayaking and white water rafting, touring and mountain biking, 
camping, horseback riding, hunting, fishing, swimming, picnicking, 
nature watching, or to simply enjoy nature. There are more than 30 
miles of non-motorized trails.
    Historically, an extensive system of trails existed along the 
Molalla River. These trails were principal trade routes across the 
Cascades between indigenous peoples of the northern Willamette Valley 
and Eastern Oregon. The Molalla Indians used one such trail in the 
early 1800's which is now called the Table Rock Historic Trail. During 
the 1920's this same trail was utilized by Native Americans from the 
Warm Springs Reservation to reach traditional berry picking areas near 
the Molalla River and Table Rock. Searching for gold and land to 
homestead, Euro-Americans began moving into the area during the late 
1800's.
    The Molalla River is less than 50 miles from downtown Portland, 
Oregon's largest city. This proximity likely means more and more people 
will visit as the population of the metropolitan area grows. In 2008 
the Corridor saw a 33% increase in use compared to the previous year--a 
record number of visitors.
    The Molalla River Alliance, including its members American Rivers, 
Oregon Wild, Native Fish Society and Molalla RiverWatch, are working 
together to secure Wild and Scenic designation for nearly 22 miles of 
the upper Molalla River. Designation would protect a quarter mile 
buffer on both sides of the river, and would therefore protect 
approximately 7,000 acres of riparian land essential for viable fish 
and wildlife habitat. These protections include a segment of the main 
Molalla River (15.1 miles) and also the Table Rock Fork (6.2 miles).
    The upper river is also benefiting from river restoration efforts 
by numerous Molalla River Alliance members that will enhance native 
fish migration and overall river health. These current actions provide 
an opportunity for decision-makers to ensure that the Molalla River and 
its values are protected and managed for the benefit and enjoyment of 
the local ecology and communities. Wild and Scenic River Protection
    Sustainable management of forest lands and river restoration 
efforts are both necessary and essential to achieving a healthy river 
and watershed. A vital expedient to safeguarding the Molalla River and 
its values is to successfully legislate it a Wild and Scenic River. 
This designation will provide the Molalla one of our nation's strongest 
conservation tools for rivers.
    Rivers listed under the Wild and Scenic Rivers Act are afforded a 
specific set of protections, including

  <bullet> Preservation of the river's ``outstandingly remarkable 
        values'' (ORVs) and its free-flowing character;
  <bullet> Protection of the existing uses of the river;
  <bullet> Ban on dams and any federally licensed water project that 
        would have a ``direct and adverse'' effect on the river's free-
        flowing character, water quality or outstanding values;
  <bullet> Creation of a 1/4-mile protected riparian buffer corridor on 
        both sides of the river;
  <bullet> Protection of the river's water quality (The Molalla River 
        is the source of drinking water for the 20,000 citizens of the 
        cities of Molalla and Canby);
  <bullet> Preservation of the river's unique historic, cultural, 
        scenic, ecological, and recreational values.

    Because the Wild and Scenic Rivers Act confers no federal authority 
over private land use or local zoning, there is no practical impact on 
private property. Riverside landowners will not be told what to do with 
their property or have their land confiscated by the federal 
government.
    To the point, not a single property owner has voiced opposition to 
Wild and Scenic designation for the Molalla River.
    The river was studied and found suitable for Wild and Scenic Rivers 
designation by the Bureau of Land Management. The Outstandingly 
Remarkable Values attributed to the Molalla River are recreation, 
scenic and geology. The federal agency's implicit support is an impetus 
to ensure designation is achieved.
    Even more so, widespread support of the local community through the 
broad-based Molalla River Alliance confirms Wild and Scenic protection 
is a priority for area stakeholders, policy makers and river users. 
Designation by the Senate would mean the river's values will be 
protected in perpetuity. Wild and Scenic River protections will benefit 
the local community and economy because the designation serves as a 
stimulus to visitors and tourists.
     benefits of a wild & scenic molalla river to local communities
    The City of Molalla's and Clackamas County's interest in the 
Molalla River, and in obtaining Wild and Scenic River status, is very 
practical. First, it's the source of drinking water for the 20,000 
citizens of Molalla and Canby. So it's very much in our community's 
interests to ensure that the Molalla River continues to run pure and 
clean. The city believes Wild and Scenic River status will help protect 
this critical resource from any future degradation.
    The second reason Molalla and Clackamas County support Senator 
Wyden and Senator Merkley's bill is that Wild and Scenic River status 
brings with it a certain cachet that will attract more visitors to 
Molalla. City leaders see Molalla becoming a destination point for 
tourism. Visitors drawn by the appeal of a Wild and Scenic River may 
discover Molalla's numerous other tourist-based activities. Restoring 
and enhancing wild salmon and steelhead runs in the river means more 
visits to Molalla by anglers and campers, more stops at restaurants and 
motels, more business for outfitters and guides.
    One of the city's challenges has been to ensure that this 
recreation corridor is safe for families to come and play. That has not 
always been so, but we have made unprecedented strides in the right 
direction.
    Until the last year or two, the Molalla River Recreation Corridor 
had a reputation that didn't really lend itself to being a family 
destination. There was unregulated squatting and camping, underage 
alcohol and pot parties, illegal dumping, vandalism, poaching, no 
communications, and little if any law enforcement.
    In the summer of 2008 that began to change. Prompted by the Molalla 
River Alliance, the City of Molalla applied for and was designated a 
``Weed and Seed'' site by the U.S. Justice Department, and it began 
receiving federal funds to carry out measures aimed at weeding out 
crime and seeding the community with projects and activities to 
strengthen community connections and opportunities. One of the most 
effective outcomes so far has been enhanced and interagency law 
enforcement patrols in the Molalla River Recreation Corridor.
    These patrols were supplemented by patrols by Clackamas County 
Sheriff's office, the Oregon State Police, Oregon Fish and Wildlife 
Department, and the Bureau of Land Management. A magnetized door logo 
was created to stick on patrol vehicles to give visitors reassurance 
that this was a coordinated effort. This also put others on notice that 
it wasn't going to be business as usual.
    All of this has resulted in a dramatic and, more important, a 
sustained reduction in lawless behavior, vandalism and dumping. 
Families are now the primary demographic visiting and camping in the 
Molalla River Recreation Corridor.
    The city is confident that Wild and Scenic River status will help 
establish a positive, inviting image for this remarkable stretch of 
river and attract even more conservation-minded individuals and 
organizations to work with us in protecting this great resource for 
future generations.
        additional benefits of wild and scenic river designation
    Beyond the direct ban on dams and other federally-assisted water 
projects that could have a harmful effect on the designated river, 
numerous identifiable examples exist of ways in which Wild and Scenic 
Rivers designation has effected positive changes for rivers and nearby 
communities.
    Clearly, designation generates an increase in public awareness and 
appreciation of a river. Knowledge and education about the importance 
of the health of the river can foster goodwill in the community and be 
a positive force for river restoration efforts. Public interest and 
support can also bring together stakeholders with diverse interests 
that might not otherwise cooperate, for the sake of the river. 
Coordination among multiple agencies facilitates the river being 
managed in a holistic manner.
    For numerous Northwest rivers (including the Deschutes, North Fork 
of the John Day, Salmon, Cascade, Big Marsh Creek, Metolius, Skagit and 
White Salmon), Wild and Scenic Rivers designation has provided 
instrumental leverage and garnered additional resources for protection, 
river-related restoration and management of the rivers. In many cases, 
Wild and Scenic Rivers designation priorities a particular project in 
the eyes of government agencies and other funding organizations.
    Because a Wild and Scenic River has been vetted through the 
designation process, a river stands out and is elevated among funding 
agencies who know their money is more likely to be used effectively. 
Increased public awareness can be a powerful and effective force to 
obtain funding to better manage, protect and restore a river.
    In an era of tight funding, Wild and Scenic Rivers designation 
garners attention when agencies are developing resources. Designation 
can be instrumental in attracting funding for acquisitions and 
conservation easements of key parcels in the river corridor. Parcels 
may need to be acquired in the river corridor to ensure their 
protection or to provide additional public access, among other reasons.
    Wild and Scenic designation provides a point of focus that attracts 
interest and naturally lends itself to the formation of partnerships. 
Through Wild and Scenic designation local, state and federal agencies, 
landowners, recreation users, non-profit organizations and others have 
a framework to come together and work to protect, restore and ensure 
public access to the river. Designation elevates the public's 
perception of the river as an important national resource.
                                closing
    On behalf of the Molalla River Alliance and the community of 
Molalla, I urge the Committee to support Wild and Scenic Rivers 
designation for the many benefits it will provide to natural and human 
communities along the Molalla River.
    Thank you.
                                 ______
                                 
                           Adams Memorial Foundation, Inc.,
                                                  November 5, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski: I am writing 
on behalf of the Adams Memorial Foundation to express our strong 
support for H.R. 2802, the Adams Memorial Reauthorization Act. As you 
may know, the Adams Memorial Foundation is a 501(c)(3) non-profit that 
was authorized by Congress in Public Law 107-62 to establish a 
commemorative work in Washington, DC to honor Presidents John Adams and 
John Quincy Adams and the Adams family legacy. The Adams Memorial 
Foundation is dedicated to designing and constructing an Adams Memorial 
which will be a site to learn about and reflect on our nation's 
founding for generations to come.
    Since 2001, the Foundation has made significant progress towards 
this goal and has, among other activities, (i) established a board of 
trustees and supporting committees consisting of notable historians, 
business leaders and fine arts professionals; (ii) developed an initial 
design concept for the memorial; (iii) researched and conducted a 
preliminary review of more than 20 potential site locations; (iv) 
engaged a leading provider of commemorative planning and design 
services to complete both an alternate site study and environmental 
assessment study of potential sites; and (v) coordinated with the U.S. 
Congress, National Park Service and other important stakeholders.
    However, under the terms of the Commemorative Works Act, the 
authority of the Adams Memorial Foundation is scheduled to expire on 
December 2, 2009. H.R. 2802 would create a four-year reauthorization of 
the Adams Memorial Foundation. This extension would provide the 
Foundation with necessary time to engage in formal alternative site 
study and environmental assessment of potential sites, hold a design 
competition to select a final design for the memorial, fundraise and 
begin construction of a historic memorial.
    On behalf of the Adams Memorial Foundation, I formally request your 
support for H.R. 2802 to extend the Foundation's legislative authority 
to establish a well deserved memorial to honor the Adams legacy. Much 
of the groundwork has been completed, and now is the time to start 
making strides to bring Adams memorial to fruition.
    Thank you for your consideration of this important piece of 
legislation and the opportunity to express our support for H.R. 2802.
            Sincerely,
                                         Benjamin C. Adams,
                                                         President.
                                 ______
                                 
                                           American Rivers,
                                  Washington, DC, November 4, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, U.S. Senate, 304 Dirksen 
        Senate Building, Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, U.S. Senate, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Chairman Udall and Ranking Member Burr: On behalf of American 
Rivers' 65,000 members and supporters thank you for holding a hearing 
on S. 1369, the Molalla River Wild and Scenic Rivers Act, and on H.R. 
3113, the Upper Elk River Wild and Scenic Study Act.
                             molalla river
    American Rivers strongly supports S. 1369, the proposed Wild and 
Scenic River designation for 15.1 miles of the Molalla River and 6.2 
miles of the Table Rock Fork of the Molalla River. The Molalla River is 
an Oregon natural treasure and a true remnant of the historical Oregon 
landscape. From its headwaters near the Cascade Mountains, this river 
winds its way through cedar, hemlock, old-growth Douglas-fir forests 
and basalt rock canyons, then travels through fertile agricultural 
lands and the cities of Molalla and Canby before entering the 
Willamette River. The Molalla River has a rich history: thousands of 
years ago an extensive system of trails existed along the Molalla River 
which were principal trade routes across the Cascades between 
indigenous peoples of the northern Willamette Valley and Eastern 
Oregon.
    Today, the Molalla River is a vital resource for many human and 
natural communities and is especially worthy of Wild and Scenic 
protection. As required by the Wild and Scenic Rivers Act, the Molalla 
River is `free-flowing' with no dams or impoundments, and has several 
'outstandingly remarkable values' (ORVs), including recreational, 
fishery, scenic, cultural, historical, and geological. Wild and Scenic 
designation is necessary to both 'protect and enhance' these ORVs for 
current and future generations.
    Protecting the river's attributes was a major impetus behind the 
creation of the local Molalla River Alliance (Alliance), a unique all-
volunteer coalition of more than 45 civic and conservation groups 
(including American Rivers), federal, state and local agencies, 
numerous user groups. individual conservationists and local property 
owners. The Alliance's mission is to preserve water quality and to 
sustain the wildlife, fish and plants that inhabit the Molalla River 
watershed, while promoting a safe and healthy environment that 
encourages diverse enjoyment of the river's recreation corridor, 
including tourism and family-friendly activities. The Alliance sees 
Wild and Scenic designation as a significant step forward in achieving 
these goals and is committed to ensuring such designation is 
successful.
    One of the most important attributes of the Molalla River is its 
role as the primary drinking water source for the cities of Canby and 
Molalla. Protecting the water quality of the river for the future is 
vital to the health and well-being of 20,000 local residents. This 
important water source is at risk from a warming global and regional 
climate as rising air temperatures lead to warmer water temperatures, 
increased concentrations of pollutants in rivers and waterways, and 
less overall water quantity<SUP>1 2</SUP>. The cold, clean, and 
reliable water supply from the Molalla River therefore has a better 
chance of being protected for current and future residents through Wild 
and Scenic designation. Designation would safeguard the river's clean 
water quality by protecting not only the water, but also a quarter mile 
buffer of land on each side of the river. This buffer corridor equates 
to 7,000 acres of riparian land which will be managed to 'protect and 
enhance' the ORVs of the river, including water quality. Due to 
hydrologic pathways and processes that connect the river to its 
surrounding lands (such as stream runoff, sub-surface flows, 
groundwater storage, vegetation canopy, soils, and nutrient and waste 
cycling), the health and condition of the Molalla's riparian lands is 
equally as important to drinking water quality as the river itself.\3\
---------------------------------------------------------------------------
    \1\ U.S. Global Change Research Program. Global Climate Change 
Impacts in the United States. 2009. Thomas R. Karl, Jerry M. Melillo, 
and Thomas C. Peterson, (eds.). Cambridge University Press, 2009.
    \2\ Hewes, W., and Pitts, K. September 2009. Natural Security: How 
Sustainable Water Strategies Prepare Communities for a Changing 
Climate. American Rivers. http://www.americanrivers.org/our-work/
global-warming-and-rivers/infrastructure/natural-security.html
    \3\ National Research Council. 2008. Hydrologic Effects of a 
Changing Forest Landscape.
---------------------------------------------------------------------------
    The Molalla River offers numerous year-round recreational 
activities for both locals and visitors. Annually, thousands of 
recreationalists visit the river corridor for hiking, fishing, rafting, 
kayaking, wildlife viewing, swimming, mountain biking, camping, 
hunting, picnicking, horseback riding, and even quiet recreation. 
Located only 50 miles from Portland, Oregon, this river is poised to 
see even more visitors and use in the near future as the Portland 
metropolitan area grows. In 2008 the river corridor saw a 33 percent 
increase in use compared to the previous year--a record number of 
visitors. Wild and Scenic designation would offer the multiple benefits 
of managing the river's recreational attributes for long-term 
sustainable use, while at the same time attracting more visitors to 
enjoy the river's recreation. Designation often puts a river on the 
`map', making it a destination for tourists and recreation enthusiasts.
    The local community of Molalla will greatly benefit from Wild and 
Scenic designation as the river will become even more attractive to 
tourists and visitors who will travel through Molalla to access the 
river. A recent 2009 economic study by ECONorthwest\4\ found that 
recreational related activities and expenditures along the Wild and 
Scenic Rogue River in southern Oregon generated $30 million and 445 
jobs to the state of Oregon in 2007, demonstrating the economic 
benefits of Wild and Scenic status.
---------------------------------------------------------------------------
    \4\ ECONorthwest. January 2009. Regional Impacts of Recreation on 
the Wild and Scenic Rogue River. http://www.americanrivers.org/assets/
pdfs/RogueEconImpact_FinalReport1485.pdf
---------------------------------------------------------------------------
    No less vital and worthy is also the enhanced sense of community 
pride that is often associated with increased public awareness and care 
for a local river and place. In previous years, the Molalla River has 
been subject to illegal and unsafe activities, including unregulated 
squatting, illegal dumping, vandalism, and very little law enforcement. 
Working with the Alliance in the past year, the City of Molalla and 
local police have been able to improve law enforcement in the river 
corridor, and the Alliance has created community projects that connect 
the community to the river corridor. This has resulted in a dramatic 
reduction in lawless behavior, and has made the river corridor more 
attractive to families and visitors. The City is confident that Wild 
and Scenic River status will help secure a more positive, inviting 
image for this remarkable stretch of river.
    The Molalla River is also an important resource for native fish and 
other aquatic species. It provides critical habitat for several native 
fish species, including a stronghold population of native winter 
steelhead, a threatened population of spring Chinook salmon, a 
naturalized population of Coho salmon, and resident rainbow and 
cutthroat trout. The Endangered Species Act (ESA) `threatened' spring 
Chinook runs in the Molalla River especially warrant and even demand 
imminent action to protect and recover these fish stocks. The Upper 
Willamette Draft Recovery Plan\5\ currently being developed by the 
Oregon Department of Fish and Wildlife and the National Marine 
Fisheries Service focuses on the recovery of spring Chinook in the 
Molalla, among other fish populations. Wild and Scenic designation is a 
valuable tool that will help strengthen and increase the viability of 
spring Chinook by ensuring management actions and land use activities 
do not further degrade water quality or riparian habitat, but instead 
restore the river and its lands to a natural and healthy condition 
which are supportive of healthy fish populations.
---------------------------------------------------------------------------
    \5\ Upper Willamette Domain Recovery Plan. Draft 2008. Oregon 
Department of Fish and Wildlife and National Marine Fisheries Service.
---------------------------------------------------------------------------
    Furthermore, the upper river and its surrounding forested riparian 
lands offer important cold-water native fish spawning and rearing 
habitat which is becoming more and more valuable in the face of climate 
change. Scientific research suggests it is vital to the long term 
viability of fish to safeguard critical cold water 
habits<SUP>6 7</SUP>. For the Molalla, this means an even more urgent 
need to protect the river's water quality and stream temperature to 
ensure fish populations, especially ESA threatened populations, are 
able to survive in a warming climate. Wild and Scenic designation will 
ensure the water quality and health of the Molalla River will be 
protected in the long-term, enabling fish populations to survive.
---------------------------------------------------------------------------
    \6\ Eaton, J.G. and Scheller, R.M. 1996. Effects of Climate Warming 
on Fish Thermal Habitat in Streams of the United States. Limnolology 
and Oceanography 41(5), 1109-1115.
    \7\ Heyn, K. and Bassett, R. June 2009. White Paper on the 
Ecological and Recreational Benefits of the Molalla River. American 
Rivers and the Native Fish Society. http://www.americanrivers.org/
library/reports-publications/the-ecological-and.html.
---------------------------------------------------------------------------
    The river corridor also serves as an important wildlife corridor 
containing breeding and rearing habitat for northern spotted owl, 
pileated woodpecker, red tree vole, red-legged frog and pacific giant 
salamander. It provides habitat for bears, cougars, bobcat, deer, elk, 
beaver, otter, hawks, osprey and both golden and bald eagles. 
Maintaining an intact, healthy river corridor through Wild and Scenic 
designation will secure precious habitat for all these species, and 
will also encourage tourists and locals to visit the river corridor for 
both its scenery and wildlife.
    The many attributes of the Molalla River summarized above clearly 
emphasize the need for Wild and Scenic protection. The Wild and Scenic 
eligibility and suitability of the river has been recommended by the 
Bureau of Land Management (BLM). As part of its planning process, the 
BLM found the river eligible and suitable for inclusion as a 
`recreational' Wild and Scenic River in the National Wild and Scenic 
Rivers System for the ORVs of fishery, recreational, scenic, and 
geological.\8\ The local Cascade Resource Area of the Salem District of 
the BLM has a close working relationship with the Molalla River 
Alliance, and the Alliance is actively involved in contributing to the 
planning process for the recreational use of the Molalla River which is 
currently underway.
---------------------------------------------------------------------------
    \8\ BLM. May 1995. Salem District Resource Management Plan. U.S. 
Department of the Interior, Bureau of Land Management. Salem District 
Office.
---------------------------------------------------------------------------
               upper elk river wild and scenic study act
    American Rivers also supports H.R. 3113, the Upper Elk River Wild 
and Scenic Study Act. This legislation will authorize a study of the 
``Slatyfork'' section of the Upper Elk River, a five mile stretch of 
cold headwaters in the heart of West Virginia, important for clean 
water and other economic and community benefits. The Upper Elk River is 
a unique river, flowing across karst, or limestone bedrock, and forming 
unique caves and waterfalls. The coldwater headwaters of the Upper Elk 
are home to some of the last naturally reproducing brook, brown, and 
rainbow trout fisheries in the east. A study of this section will 
identify the ``outstandingly remarkable values'' required for Wild and 
Scenic River designation.
    West Virginia is home to some of the nation's most remarkable 
rivers, however, only the Bluestone River is part of the National Wild 
and Scenic River System. Studying the Upper Elk River for potential 
Wild and Scenic River designation is the necessary first step towards 
protecting this outstanding river for future generations and increasing 
West Virginia's protected rivers.
    For all of the reasons described above, American Rivers supports 
Wild and Scenic designation for the Molalla River and the Table Rock 
Fork of the Molalla, and a Wild and Scenic study of the Upper Elk 
River. We look forward to working with the committee to advance this 
legislation. Thank you for consideration of our testimony.
            Sincerely,
                                               Kavita Heyn,
                                Associate Director of Conservation.
                                 ______
                                 
                                      Town of Blowing Rock,
                                Blowing Rock, NC, November 2, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, U.S. Senate, Committee on 
        Energy & Natural Resources, 304 Dirksen Senate Building, 
        Washington, DC.
RE: S. 1767 Blue Ridge Parkway and Town of Blowing Rock Land Exchange 
Act of 2009

    Dear Chairman Udall: I am writing to respectfully request your 
support of S. 1767--Blue Ridge Parkway and Town of Blowing Rock Land 
Exchange Act of 2009 (companion to H.R. 1121) that is under 
consideration before the Senate Subcommittee on National Parks.
    Since 1938, the Town of Blowing Rock has used an impoundment that 
is located on the Moses H. Cone Estate, for a public water supply. In 
1949, the Cone Estate, via the Moses H. Cone Memorial Hospital 
Trustees, was conveyed to the United States of America.
    The Town desires acquisition of the water reservoir to have better 
control and management of its water supply. As proposed, the Town would 
convey a 192-acre tract of undeveloped land (Thunderhole/China Creek) 
that adjoins the Cone Estate and borders the Pisgah National Forest to 
the Blue Ridge Parkway in exchange for ownership of the 20-acre water 
supply tract. The 192-acre Thunderhole/China Creek tract was identified 
by the Parkway as a parcel that would be beneficial for both the 
preservation of the natural resources present and for potential 
enhancement of the Moses H. Cone Estate. Thus, the proposed land 
exchange provides enumerable benefits to both parties.
    A complete summary of the history of the potential, land exchange 
is attached for your information.
    In addition, please find enclosed letters of support for this 
legislation from various local and state officials. I would like to 
note that H.R. 1121 received co-sponsorship from the entire N.C. 
delegation and passed the U.S. House 377 to 0.
    Thank you for your consideration. Should you have questions or need 
additional information, please feel free to contact me or Town Manager 
Scott Hildebran.
            Sincerely,
                                             J.B. Lawrence,
                                                             Mayor.
  Attachment I.--Summary: Town of Blowing Rock Water Reservoir--Land 
                                Exchange
                                history
    In 1938, Mrs. Bertha Cone granted the Town of Blowing Rock, by 
right-of-way deed, the permission to divert water from the Moses Cone 
Estate. Since that time to the present, the Town has used this 
authorization to provide a water supply source to the citizens of 
Blowing Rock. The Town has occupied/maintained up to 14.08 acres (8.7 
acre water reservoir) of the Cone Estate over the years and constructed 
various improvements, including a coffer dam, reservoir and dam on the 
property. In 1949, after the death of Mrs. Cone, the Cone Estate via 
the Moses H. Cone Memorial Hospital Trustees was conveyed to the United 
States of America.
           us park service/blue ridge parkway--land exchange
    Due to various historical circumstances, Blowing Rock's water 
supply reservoir is located on property owned by the Blue Ridge 
Parkway. Blowing Rock has for years used their reservoir site with a 
``gentlemen's agreement''. In the late 1990's, the Parkway proposed 
issuing a Special Use Permit for the site granting a right-of-way for 
the reservoir, to be reviewed annually. In addition, the Parkway 
advised that federal policy would require a water rights fee for the 
value of the water taken off the National Park Service land. This 
situation was deemed unacceptable since the Town would, in effect, be 
``renting'' its water source one year at a time and paying for water 
the Town has previously been granted access. Being located on the Blue 
Ridge escarpment, Blowing Rock has few other water source options if 
its current major source becomes unavailable. Therefore, the Town has 
worked diligently to acquire full ownership of the property because of 
the ambiguity concerning access, use, and future status.
    Since 1999, the Town and the NPS have discussed how to resolve the 
reservoir issue once and for all. Due to the fact the U.S Department of 
Interior very rarely sells government land and to avoid annual 
permitting and the water rights fee, the most viable option entertained 
has been the possibility of a land exchange between the Town and the 
NPS. In accordance with federal regulation, the NPS would grant the 
Town ownership of or a permanent easement for the public reservoir 
including a water right in return for a parcel of property of equal or 
greater value.
    To this end, the NPS identified an adjacent tract of property, the 
192-acre China Creek Property, to make such a transaction a 
possibility. The China Creek tract borders two large federal holdings--
the Blue Ridge Parkway and the Pisgah National Forest.
    The Blue Ridge Parkway has over the years, formally and informally, 
recognized the need to acquire the China Creek tract in order to 
properly manage existing Parkway lands. The need became apparent when a 
previous owner of the tract claimed a right of access to the subject 
property through an existing park holding. A small farm was located on 
the less rugged portion of the property approximately 60 years ago. 
Also, the narrow peninsula shape of Parkway land in China Creek gorge 
makes management difficult. Acquisition of the China Creek tract would 
broaden the Parkway's existing Moses Cone Estate tract. More 
importantly, ownership of the property would eliminate the threat of 
development and/or timbering adjacent to the Parkway and the Forest.
    This proposed transaction, which provides the Town with the 
opportunity to gain full control and ownership of its water supply, 
would also include adequate land for the Town to enlarge the reservoir 
to double its current 45,000,000 gallon capacity. The total Parkway 
land needed (including expansion) is estimated to be 20.474 acres based 
on a survey of the property.
    With the assistance of the High Country Council of Governments and 
in consultation with the Parkway, the Town sought a grant from the NC 
Clean Water Management Trust Fund to assist in the purchase of China 
Creek property to effect an exchange. In November 2001, the Town was 
awarded a grant from the NC Clean Water Management Trust Fund of 
$201,000. Due to the State of North Carolina FY 2002 Budget revenue 
shortfall, the grant award was delayed to 2003.
    In October of 2003, the Town of Blowing Rock completed the purchase 
of the 192-acre tract, at the headwaters of China Creek in Watauga 
County in the Catawba River Basin, from the Conservation Trust of NC. 
The purchase price for the property was $440,000, with $201,000 coming 
from the NCCWMTF grant and the remainder from the Town.
    Since this time, the Town and the Blue Ridge Parkway (with the 
assistance of our western NC Congressional delegation) has continued to 
work toward completion of the land exchange--conducting legal research 
and trying to acquire the funding to prepare the environmental 
documentation necessary to comply with NEPA requirements. Based on 
Parkway estimates, the environmental documentation could cost up to 
$100,000.
    The Blue Ridge Parkway Foundation has also encouraged and lent its 
support to the land exchange finding the exchange beneficial to the 
Blue Ridge Parkway while assuring the drinking water supply for Blowing 
Rock and guests to the area.
                     water supply issues/solutions
    The Town of Blowing Rock is presently under restrictions from the 
NC Department of Environment & Natural Resources, which prohibits the 
Town from making ANY extensions to the present water distribution 
system. The reason for the extension restriction is an inadequate raw 
water supply.
    The present plant capacity is 1.0 MGD; the present consumption 
during peak season is approximately .650 MGD and the state has set safe 
yield at approximately 0.40 MGD.
    The Town of Blowing Rock has been working toward a long-term 
solution to water shortage due to drought since 1991.
    Discussions started with the National Park Service (NPS) concerning 
a possible emergency connection to Bass Lake and in 1992 a permanent 
line was laid along Bass Lake Drive to facilitate an emergency 
withdrawal from Bass Lake. This was outside Cone Park and was set up to 
run a temporary line to Bass Lake when needed. This line would have 
operated as a siphon.
    The Town tried to obtain permission from the NPS to draw from Bass 
Lake from 1991 through most of 2000. In 2000, the NC Department of 
Environment and Natural Resources (NCDENR) gave the Town parameters for 
``safe yield'' which showed that even if the NPS were to eventually 
grant permission to withdraw from Bass Lake the safe yield would not be 
adequate, therefore the pursuit of permission from NPS to withdraw from 
Bass Lake was stopped.
    In 1998, there was a serious drought and the Town obtained 
permission from Chetola Resorts, Shoppes on the Parkway and NCDENR to 
pump water from Chetola Lake to the reservoir on an emergency basis. 
The Town used this line in 1998, 2000, 2001, 2002, as well as in the 
latest drought--2007 and 2008.
    The method of operation for this line was to ``skim'' during any 
rain event in order not to draw Chetola Lake down below the spillway. 
This worked very well and by closely monitoring the reservoir the Town 
was able to keep the reservoir very close to ``full pond''. This was 
even true in 2007 when the state experienced the most severe drought 
conditions.
    Even before efforts to draw from Bass Lake were abandoned, the Town 
started to work on obtaining a permit to add a new water intake into 
the Middle Fork of the South Fork of the New River. In late 1999, the 
Town requested NCDENR to reclassify, if necessary, any part of the 
Middle Fork required in order to withdraw water on a pump back system. 
Water will be pumped back to the reservoir where it can then be drawn 
out, and treated for use by the Town.
    Various locations were looked at as possibilities for the location 
of an intake and a meeting was held between various sections of NCDENR, 
N.C. Wildlife, US Army Corps of Engineers and the Blue Ridge Parkway. 
As discussions progressed, it was determined that an ``In Stream Flow 
Study'' would be required and the Town hired Fish and Wildlife 
Associates, Inc. in January 2001. This study was completed and data was 
submitted to NCDENR in 2002.
    The proposed location for this new intake is below the confluence 
of Payne Branch with Middle Fork, near Boone. This location is over 6 
miles downstream of the Town Reservoir. The reason for going downstream 
so far is two fold; (1) the stream flow increases as you go downstream 
and Blowing Rock needs the flow from Payne Branch; and (2) the intake 
must be 5 miles below the Town WWTP discharge.
    On July 24, 2003, NCDENR sent the Town a letter outlining a 
proposed withdrawal below Payne Branch. The proposed withdrawal rates 
are:

  <bullet> January 1 to June 30--2.5 MGD
  <bullet> July 1 to September 30--1.8 MGD
  <bullet> October 1 to December 31--1.0 MGD

    The above rates are permitted so long as the 7Q10 of 4CFS (Cubic 
Feet per Second) are maintained. The 7Q10 streamflow is the yearly 7-
day average low streamflow with a 10-year return period. In addition, 
skimming will be permitted anytime the flow exceeds 35 CFS with no 
restriction on withdrawal rate so long as the 35 CFS is maintained.
    However, the withdrawal limitations are greatly impacted by 
drought. As such, the benefit of a new intake is diminished when it is 
needed most. At the same time due to the proximity of the proposed 
intake to Boone, NCDENR strongly suggested that the Town install a 
parallel line to interconnect with the Boone water system. As such, the 
Town began to focus on a Boone-Blowing Rock water system 
interconnection and meetings between the two entities began in 2004. 
After which, the Town of Boone initiated a thorough review of their 
water system and future raw water demands.
    In addition, Blowing Rock has had discussions with Caldwell County 
concerning possible water and their proposed raw water supply and plant 
on the Yadkin River. This project is 10+ years from becoming a reality 
and once it is completed would require some 12-15 miles of pipe up US 
321 from NC Hwy 268. Due to major elevation changes and the necessary 
pumping required, this option was deemed cost prohibitive.
    In the course of the 2007-2008 drought, NCDENR experts identified a 
Blowing Rock and Boone water interconnection as a priority. Boone has 
access to a larger water source and recently signed an agreement with 
Appalachian State University to be able to draw on its water system, so 
this would create a regional system that all three entities can use 
during times of crisis.
    After ongoing discussions, in early 2008, the Town of Blowing Rock 
and the Town of Boone formally executed an emergency water 
interconnection agreement.
    A contract was executed in June 2008 with McGill Associates to 
design a Boone-Blowing Rock water interconnection project, with an 
estimated cost of $4.0 million for the project. Also, the following 
funding actions have been approved:

          1. Watauga County was awarded a $500,000 grant from the N.C. 
        Rural Center, with Blowing Rock committed to funding the 100% 
        grant match as enumerated in a joint Indemnification and Hold 
        Harmless Agreement.
          2. Boone was awarded a $1,000,000 grant from the N.C. Rural 
        Center, with Blowing Rock committed to funding the 100% grant 
        match.
          3. Blowing Rock was awarded a $300,000 grant from the 
        Appalachian Regional Commission and is completing all the 
        necessary requirements.
          4. Blowing Rock was awarded a $2,200,000 20-year loan from 
        the NCDENR-Public Water Supply Section--Loans and Grants and is 
        completing all the necessary requirements.
          5. The Town of Blowing Rock increased water rates by $5.00 
        per month per customer effective July 1, 2008 to cover expected 
        debt service requirements of the NCDENR loan.

    Plans/specifications have been completed and the project was bid in 
late October 2009. The Blowing Rock Town Council will consider bid 
award on November 10, 2009. Construction on the interconnection should 
begin by January 1, 2010.
                   Attachment II.--Letters of Support
                                 County of Watauga,
                     Watauga County Board of Commissioners,
                                         Boone, NC, April 14, 2009.
Hon. Raul M. Grijalva,
Chairman, Subcommittee on National Parks, Forests, and Public Lands, 
        U.S. House Committee on Natural Resources, 1333 Longworth House 
        Office Building, Washington, DC.
RE: H.R. 1121 Blue Ridge Parkway and Town of Blowing Rock Land Exchange 
Act of 2009

    Dear Chairman Grijalva: I am writing to request your support of 
H.R. 1121--Blue Ridge Parkway and Town of Blowing Rock Land Exchange 
Act of 2009 that is under consideration before the House Subcommittee 
on National Parks, Forests, and Public Lands.
    Since 1938, the Town of Blowing Rock has used an impoundment that 
is located on the Moses H. Cone Estate, for a public water supply. In 
1949, the Cone Estate, via the Moses H. Cone Memorial Hospital 
Trustees, was conveyed to the United States of America. To have better 
control and management of its water supply, the Town is interested in 
acquiring this property. The Town owns a 192-acre tract of undeveloped 
land (Thunderhole/China Creek) that adjoins the Cone Estate and borders 
the Pisgah National Forest. The Town is considering conveying that land 
to the Blue Ridge Parkway in exchange for the ownership of the 20-acre 
water supply area. Parkway ownership of the 192-acre tract would be 
beneficial for both the preservation of the natural resources present 
and for potential enhancement of the Moses H. Cone Estate.
    The Parkway has no authority to sell, cede, or convey lands under 
its management except through as equal value land exchange as long as 
the proposed exchange can be shown to be of a ``demonstrable benefit'' 
to the park.
    The Blue Ridge Parkway and the Town of Blowing Rock have had a long 
and successful relationship as they both have worked to serve their 
constituencies. And, the proposed land exchange will continue that 
tradition and provide demonstrable benefits to both entities. 
Therefore, on behalf of the citizens of Watauga County, I urge your 
support of H.R. 1121.
    Thanks for your consideration. Should you have questions or need 
additional information, please feel free to give me a call.
            Sincerely,
                                        James M. Deal, Jr.,
                                                          Chairman.
                                 ______
                                 
                   North Carolina General Assembly,
                                  House of Representatives,
                                       Raleigh, NC, April 15, 2009.
Hon. Raul M. Grijalva,
Chairman, Subcommittee on National Parks, Forests, and Public Lands, 
        U.S. House Committee on Natural Resources, 1333 Longworth House 
        Office Building, Washington, DC.
    Dear Chairman Grijalva: I am writing to request your support of HR 
1121 Blue Ridge Parkway and Town of Blowing Rock Land Exchange Act of 
2009 that is under consideration before the House Subcommittee on 
National Parks, Forests, and Public Lands.
    As a member of the North Carolina General Assembly and Chairman of 
the Water Resources and Infrastructure Committee, I am aware of the 
need for dependable sources of water for municipalities. The North 
Carolina mountain region has experienced dramatic population growth and 
increased tourism. In addition, this area has experienced extreme 
drought conditions requiring towns like Blowing Rock to make more 
permanent provisions for a reliable water supply.
    The land exchange Blowing Rock is proposing with the Blue Ridge 
Parkway would be beneficial to both organizations. The town would 
convey a 192-acre tract of undeveloped land (Thunderhole/China Creek) 
that adjoins the Cone Estate and borders the Pisgah National Forest to 
the Blue Ridge Parkway in exchange for ownership of the 20-acre water 
supply tract. The Blue Ridge Parkway has already recognized the need to 
acquire the China Creek tract as it would eliminate the threat of 
development and/or timbering adjacent to the Parkway and the Forest. 
Also, this transaction would formally provide Blowing Rock with a 
reservoir that it has occupied, maintained and improved since 1938 with 
additional land for reservoir expansion.
    I hope that you will consider this landxchange that is a winning 
compromise for both the Blue Ridge Parkway and the Town of Blowing 
Rock. I am available to answer any questions or concerns you may have 
about this proposal.
            Sincerely,
                                        Cullie M. Tarleton.
                                 ______
                                 
                   North Carolina General Assembly,
                                                    Senate,
                                       Raleigh, NC, April 21, 2009.
Hon. Raul M. Grijalva,
Chairman, Subcommittee on National Parks, Forests, and Public Lands, 
        U.S. House Committee on Natural Resources, 1333 Longworth House 
        Office Building, Washington, DC.
    Dear Chairman Grijalva: I write to request your support of HR 1121 
Blue Ridge Parkway and Town of Blowing Rock Land Exchange Act of 2009, 
which is being considered by the House Subcommittee on National Parks, 
Forests and Public Lands.
    The Town of Blowing Rock, along with other western North Carolina 
communities, is experiencing dramatic population growth and has been 
recently challenged by severe drought. It is obvious that their water 
problems will require a permanent solution which must be found soon.
    The land exchange which Blowing Rock proposes with the Blue Ridge 
Parkway would benefit both organizations. The Town would convey a 192-
acre tract of undeveloped land, which adjoins the Cone estate and 
borders the Pisgah National Forest, to the Blue Ridge Parkway in 
exchange for ownership of the 20-acre water supply tract. The Parkway 
has already recognized the need to acquire the China Creek tract, to 
eliminate the threat of development and/or timbering adjacent to the 
Parkway and Forest. This transition would benefit Blowing Rock by 
formally providing a reservoir which it has occupied, maintained and 
improved since 1938, with additional land for reservoir expansion.
    I will personally appreciate your consideration of this land 
exchange as a positive step for the future of both the Blue Ridge 
Parkway and the Town of Blowing Rock. Please call on me if I may be of 
help.
            Sincerely,
                                                Steve Goss.
                                 ______
                                 
                Blowing Rock Tourism Development Authority,
                                     Blowing Rock, NC, May 7, 2009.
Hon. Virginia Foxx,
U.S. House of Representatives, 1230 Longworth House Office Building, 
        Washington, DC.
    Dear Representative Foxx: On behalf of the Blowing Rock Tourism 
Development Authority, I am writing this letter to thank you for your 
introduction and support of H.R. 1121--Blue Ridge Parkway and Town of 
Blowing Rock Land Exchange Act of 2009 which authorizes a land exchange 
to acquire lands for the Blue Ridge Parkway and permanently secures the 
Blowing Rock water supply.
    As you know, our need for a long-term water solution has been at a 
critical stage for the past decade. The need is also vital to our 
tourism-based economy. From hoteliers and restaurants, to fishing 
guides and rafting outfitters, as well as our retailers, we all rely on 
water.
    As the ``Crown of the Blue Ridge'', Blowing Rock has enjoyed a long 
and successful relationship with the Blue Ridge Parkway and the 
National Parks Service. The people of Blowing Rock and the visitors 
that frequent this area, have always had a strong commitment to 
conservation and sustainability and through this land exchange, we will 
all benefit and continue the successful relationship that we have 
enjoyed for so many years.
    Thank you again for your support. Please call me anytime should you 
have any questions and know that we always look forward to your visits 
back home.
            Warmest regards,
                                            Kent Tarbutton,
                                                          Chairman.
                                 ______
                                 
                          Blowing Rock Chamber of Commerce,
                                    Blowing Rock, NC, May 10, 2009.
Hon. Raul M. Grijalva,
Chairman, Subcommittee on National Parks, Forests, and Public Lands, 
        U.S. House Committee on Natural Resources, 1333 Longworth House 
        Office Building, Washington, DC.
RE: H.R. 1121 Blue Ridge Parkway and Town of Blowing Rock Land Exchange 
Act of 2009

    Dear Chairman Grijalva: I am writing to respectfully request your 
support of H. R. 1121 Blue Ridge Rock Parkway and Town of Blowing Rock 
Land Exchange Act of 2009 currently under consideration before the 
National Parks, Forests, and Public Lands.
    Since 1938, the Town of Blowing Rock has used an impoundment 
located its public water supply. In 1949, the Cone Estate via the Moses 
H. Cone Memorial Hospital Trustees was conveyed to the United States of 
America.
    As the Blowing Rock Chamber of Commerce, we recognize the 
limitations to future economic development in our town resulting from 
our inability to adequately provide water for our current residents, 
existing businesses and visitors. Our primary industry, accounting for 
95% of our economic base, is tourism. With the drought we have been 
experiencing since 2004, our town must make provisions for a reliable 
water supply to serve our present and future water needs.
    The land exchange being proposed by our town with the Blue Ridge 
Parkway would be mutually beneficial to both entities. The Town would 
convey 192 acres of undeveloped land that adjoins the Cone Estate and 
borders the Blue Ridge Parkway and Pisgah National Forest to the Blue 
Ridge Parkway in exchange for ownership of the 20 acre water supply 
tract on the Cone Estate. The Blue Ridge Parkway has already recognized 
the need to acquire this tract to prevent future development and 
potential timbering adjacent to the Parkway and the Forest. 
Additionally, this transaction would provide Blowing Rock a reservoir 
that it has maintained and improved since 1938 with sufficient land for 
reservoir expansion.
    I hope you will consider this land exchange as it is a win for both 
the Blue Ridge Parkway and the Town of Blowing Rock. Please call on me 
if you need any further assistance.
            Sincerely,
                                            Charles Hardin,
                                                Executive Director.
                                 ______
                                 
                             Blue Ridge Parkway Foundation,
                                Winston-Salem, NC, January 4, 2005.
Hon. Charles Taylor,
22 South Pack Square, Suite 330, Asheville, NC.
    Dear Charles, As the organization charged with the responsibility 
for keeping the Parkway's congressional delegation informed of Parkway 
matters, I am writing to you to ask your support in helping to secure 
funds to satisfy NEPA requirements for a land exchange transaction 
between the Town of Blowing Rock and the National Park Service.
    Our view and position on this matter is that overcoming this hurdle 
will greatly benefit the Blue Ridge Parkway while at the same time 
assuring the drinking water supply for this community and its guests.
    The NPS regional director has supplied a letter of testimony in 
support of this project and has assured the parties concerned that the 
acquisition process is in full compliance with National Park Service 
authorities and guidelines.
            Sincerely,
                                      Dr. Houck M. Medford,
                                                Executive Director.
                                 ______
                                 
                                      Town of Blowing Rock,
                                Blowing Rock, NC, November 2, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, U.S. Senate, Committee on 
        Energy & Natural Resources, 304 Dirksen Senate Building, 
        Washington, DC.
    Dear Chairman Udall and Committee Members: Thank you for allowing 
me the opportunity to provide a statement to the Subcommittee on 
National Parks. On behalf of the Mayor, Town Council and citizens of 
Blowing Rock, I respectfully request your support of S. 1767--Blue 
Ridge Parkway and Town of Blowing Rock Land Exchange Act of 2009 that 
is under consideration before this committee.
    Since 1938, the Town has continuously used an impoundment that is 
located on the Moses H. Cone Estate for a public water supply. Over the 
years, the Town has occupied, maintained and constructed various 
improvements on over 14 acres of the Cone Estate in providing water for 
its citizens and visitors.
    In 1949, after the death of Mrs. Cone, the Cone Estate, via the 
Moses H. Cone. Memorial Hospital Trustees, was conveyed to the United 
States of America.
    Due to various historical circumstances, Blowing Rock's water 
supply reservoir is located on property now owned by the Blue Ridge 
Parkway. Blowing Rock has for years used the reservoir site with an 
informal agreement. In the late 1990's, the Parkway proposed issuing a 
Special Use Permit for the site granting a right-of-way for the 
reservoir to be reviewed annually.. In addition, the Parkway advised 
that federal policy would require a water rights fee for the value of 
the water taken off the National Park Service land. This situation was 
deemed unacceptable since the Town would, in effect, be ``renting'' its 
water source one year at a time and paying for water the Town had 
previously been granted access. Being located on the Blue Ridge 
escarpment and at the crest of three watersheds, Blowing Rock has few 
other water source options if its current major source becomes 
unavailable. Therefore, the Town has worked diligently to acquire full 
ownership of the property because of the ambiguity concerning access, 
use, and future status.
    Since 1999, the Town and the Parkway have worked jointly to resolve 
the reservoir issue. Due to the fact the Parkway has no authority to 
sell government land and to avoid annual permitting and a water rights 
fee, the most viable option has been the possibility of a land exchange 
between the Town and the Parkway. In accordance with federal 
regulation, the Parkway would grant the Town ownership of the public 
reservoir in return for a parcel of property of equal or greater value.
    To this end, the Parkway in the late 1990's identified an adjacent 
tract of property, the 192-acre Thunderhole/China Creek Property, to 
make such a transaction possible. The tract borders two large federal 
holdings--the Blue Ridge Parkway and the Pisgah National Forest.
    The Blue Ridge Parkway has over the years, formally and informally, 
recognized the need to acquire the Thunderhole/China Creek tract in 
order to properly manage existing Parkway lands. The need became 
apparent when a previous owner of the tract claimed a right of access 
to the subject property through an existing park holding. A small farm 
was located on the less rugged portion of the property approximately 60 
years ago. Also, the narrow peninsula shape of Parkway land in the 
China Creek gorge makes management difficult. Acquisition of the 
Thunderhole/China Creek tract would broaden the Parkway's existing 
Moses Cone Estate tract. More importantly, ownership of the property 
would eliminate the threat of development and/or timbering adjacent to 
the Parkway and the Forest.
    In November 2001, with the assistance of the High Country Council 
of Governments and in consultation with the Parkway, the Town applied 
for and was awarded a grant from the State of NC Clean Water Management 
Trust Fund to assist in the purchase of the Thunderhole/China Creek 
property to execute the proposed land exchange. The grant funds, of 
$201,000, were received in 2003.
    In October of 2003, the Town of Blowing Rock completed the purchase 
of the 192-acre tract from the Conservation Trust of NC. The purchase 
price for the property was $440,000, with $201,000 coming from the 
grant and the balance from the Town.
    Since that time, the Town and the Blue Ridge Parkway (with the 
assistance of our western NC Congressional delegation) have continued 
to work toward completion of the land exchange.
    This proposed transaction, which provides the Town with the 
opportunity to gain full control and ownership of its water supply, 
would also include adequate land for the Town to enlarge the reservoir 
to double its current 45,000,000 gallon capacity. The total Parkway 
land needed (including expansion) is 20.474 acres based on a survey of 
the property.
    In summary, the Town desires acquisition of the water reservoir to 
have better control and management of its water supply. The proposed 
legislation authorizes the Town to convey a 192-acre tract of 
undeveloped land that adjoins the Cone Estate and borders the Pisgah 
National Forest, to the Blue Ridge Parkway in exchange for ownership of 
the 20-acre water supply tract. The Thunderhole/China Creek tract was 
identified by the Parkway as a parcel that would be beneficial for both 
the preservation of the natural resources present and for potential 
enhancement of the Moses H. Cone Estate. Thus, the proposed land 
exchange provides obvious benefits to both the Town of Blowing Rock and 
the Blue Ridge Parkway.
    I would like to mention that the entire NC Congressional delegation 
co-sponsored H.R. 1121 and the legislation passed the U.S. House 377 to 
0. The legislation has received the following letters of support--
Blowing Rock Mayor JB Lawrence, Watauga County Board of Commissioners 
Chair James Deal, NC State Representative Cullie Tarleton, NC State 
Senator Steve Goss, the Blowing Rock Chamber of Commerce and the 
Blowing Rock Tourism Development Authority. Also, the Blue Ridge 
Parkway Foundation has encouraged and lent its support of the land 
exchange finding the exchange beneficial to the Blue Ridge Parkway 
while assuring the drinking water supply for Blowing Rock and guests to 
the area.
    I would like to thank committee member Senator Richard Burr and 
Senator Kay Hagan for their sponsorship of this legislation and 
respectfully request your support.
    Thank you for your time and consideration.
            Sincerely,
                                        Scott E. Hildebran,
                                                      Town Manager.
                                 ______
                                 
                              Pocahontas County Commission,
                                   Marlinton, WV, February 4, 2009.
Hon. Nick J. Rahall,
2307 Rayburn Office Building, Independence Avenue & S. Capitol Street, 
        S.W., Washington, DC.
    Dear Congressman Rahall: The Pocahontas County Commission received 
a request from area landowners and other interested parties to support 
a request to include federal funding for an eligibility study for a 
portion of the Elk Headwaters in Pocahontas County. I write to inform 
you of today's unanimous vote by the Pocahontas County Commission in 
support of that request and would ask that your office help provide 
funding to the appropriate agency to conduct an eligibility study for a 
section of the Upper Elk River extending up-river approximately 4 1/2 
miles from the Pocahontas County line so that it may be considered for 
designation as a Wild and Scenic River under the federal Wild and 
Scenic Rivers, Act.
    Please find, enclosed, copies of letters of support from numerous 
landowners and homeowners associations located on and near the proposed 
River Area of study. The Commission has also organized a Pocahontas 
County Water Task Force to prepare a county plan for water resources 
that will complement the State Water Resource Plan when it is 
completed. This request for federal support of a water study on the Elk 
River will be a wonderful start toward being proactive in water 
resource planning for Pocahontas County.
    Thank you for your consideration of this request. Please feel free 
to contact our office at 304-799-6063 if you need any additional 
information.
            Sincerely,
                                          Martin V. Saffer,
                                                         President.
                                 ______
                                 
                              Pocahontas County Commission,
                                 Marlinton, WV, September 23, 2009.
Hon. Nick J. Rahall,
2307 Rayburn Office Building, Independence Avenue & South Capitol 
        Street, S.W., Washington, DC.
    Dear Congressman Rahall: The Pocahontas County Commission is happy 
to learn that H.B. 3113 has just been passed by the House of 
Representatives, and we would like to take this opportunity to express 
our gratitude for your strong leadership and continued support for 
federal funding for an eligibility study of a portion of the upper Elk 
River in Pocahontas County for study for potential addition to the 
National Wild and Scenic Rivers System.
    Pocahontas County must be ever vigilant in preserving its natural 
resources which serve as the foundation for much of our economy and 
which irreplaceable assets add immeasurably to the quality of life of 
all our citizens. We are very fortunate to have you as our Congressman, 
helping us in this important task of stewardship.
            Sincerely,
                                          Martin V. Saffer,
                                                         President.
                                 ______
                                 
                              Hammer, Ferretti & Schiavoni,
                                 Martinsburg, WV, February 9, 2009.
Hon. Nick Rahall,
2307 Rayburn House Office Building, Washington, DC.
    Dear Representative Rahall, I support a study of the Upper Elk 
River so that it may be considered for designation as a Wild and Scenic 
River under the federal Wild and Scenic Rivers Act. I bought property 
and built a home in Pocahontas County due in large part to the access I 
would have to the Elk River. Its pathway through underground limestone 
caves in the Slaty Fork area makes it a unique fishery enjoyed by many 
travelers and nonresidents. It is supportive of the local economy and 
this State's reputation for outdoor recreational opportunities. The 
river deserves study and preservation. The river has been featured many 
times in national publications and is recognized as the best trout 
stream in West Virginia.
    Please consider this letter as representative of the many 
fishermen, local business owners and a vast majority of Pocahontas 
County residents who recognize this wonderful resource in their midst.
            Sincerely,
                                        Joseph R. Ferretti,
                                                           Esquire.
                                 ______
                                 
   Statement of John C. Sharp, Ph.D., DO, Marlinton, WV, on H.R. 3113
    I am a 4th generation native of Pocahontas County. My grandfather 
was Calvin Price and my mother is Jane Price Sharp of the Pocahontas 
Times. We are all strong believers in and support conservation of the 
forests, streams and rivers (waters) in Pocahontas County and the 
Monongahela National Forest.
    I am in favor of the National Wild and Scenic River status of the 
upper section of the Elk River. I do own 20 acres along this section of 
the Elk River and am willing to exchange this piece of property to/with 
the US Forest Service.
    I do not want to hinder or interfere with the designation of the 
upper Elk River as a national wild and scenic river.
    If I can be of any assistance in this project please let me know.
                                 ______
                                 
      Statement of Thomas A. Shipley, Slatyfork, WV, on H.R. 3113
    This letter is to advise the Pocahontas County Commission of my 
support for the proposed study of the Upper Elk River for consideration 
in the Wild and Scenic Rivers program. Knowledge is power and the 
information gleaned from this process will allow our community to make 
appropriate decisions based on the strength of scientific fact.
    The Upper Elk River and her headwaters have been a source of 
sustenance for the Sharp family, pioneer settlers in the area, for 
close to two centuries. I am the eighth generation in what is now 
Pocahontas County. My forefathers owned much of the land on and around 
the proposed area of study.
    William Sharp, III built a log house right along the river beside 
Laurel Run (comes into the Elk just down from the confluence of Old 
Field Fork and Big Spring Fork.) in the early 1800's. Some foundation 
stones are still present on the original site. The Sharp family history 
is intertwined with that of the Upper Elk. Civil war skirmishes took 
the lives of 3 of my great uncles. My great, great grandfather, Silas, 
was taken as a prisoner of war right in the log cabin that still stands 
behind our country store.
    My great grandfather started Sharp's Country Store in 1884. It has 
been in continuous operation for over 125 years. The store and farm 
grounds (with covered bridge) are a source of pleasure for many 
tourists from all over the United States.
    History abounds around, near and on the banks of the Elk River. She 
is, in a literal sense, very much as she was back in the early 
1800's.....one of the last rivers on the East Coast that has three 
naturally reproducing species of wild trout.....Brook, Brown and 
Rainbow. As Big Spring Fork and Old Field merge, they form an 
impressive gateway to the Upper Elk...a gift from God to Pocahontas 
County.
    My family's holdings, over time, have been reduced to somewhere 
around 1800 acres...all in the proximity of the Upper Elk and her 
spring-fed rapids. I personally own 360 acres, some directly in the 
proposed area of study. I encourage you to support this important 
effort.
                                 ______
                                 
                       Eight Rivers Safe Development, Inc.,
                                        Cass, WV, February 2, 2009.

    This letter is to document Eight Rivers Safe Devleopment, Inc. 
support for the proposal to place the Upper Elk River under study for 
classification under the Wild and Scenic Rivers Act.
    The Upper Elk River is truly a unique resource in West Virginia--
and the United States. The upper reaches of the headwaters streams flow 
across karst (limestone)--in fact, the bed of Old Field Fork, Big 
Spring Fork and the Upper Elk River is bedrock limestone. This results 
in unique hydrology, geology and biology as the headwater streams sink 
into the limestone and flow underground in caves and reemerge as large 
springs which feed the world class fishery of the Upper Elk which 
includes reproducing wild populations of brook, rainbow and brown 
trout--the only place in West Virginia where this exists.
    The Upper Elk River itself sinks and flows underground for over 5 
miles--of which only 2500 ft has been seen in the many caves of the 
area. The underground Elk River has been and remains a mystery and 
attracts recreational and scientific cavers from all over the United 
States and the world.
    Eight Rivers Safe Development has participated--on two occasions--
on trips to Washington, DC to lobby for consideration of the Upper Elk 
River for study as a Wild and Scenic River. Our presentation to our 
Washington representatives included a photo tour of the caves and 
springs of the area. The senators and congressmen were duly impressed 
with the rare beauty of the underground Elk. Pictures of the caves and 
underground streams/waterfalls of the Upper Elk can be viewed at our 
website--8riverssafedevelopment.com.
    The Elk River deserves and needs to be protected from uninformed 
development. Not exclusive to development but rather development that 
acknowledges and protects this tremendous resource for future 
generations--both as a recreational / scenic resource but also as a 
water resource. There is truly nothing like the Upper Elk River 
anywhere else in the U.S. We sometimes take it for granted that places 
such as this exist elsewhere--they do not.
            Sincerely,
                                        George R. Phillips,
                                                         President.
                                 ______
                                 
         Statement of Gene Gibson, Slatyfork, WV, on H.R. 3113
    I am writing in support of a study of the Upper Elk River for 
consideration of including it in the Wild and Scenic Rivers system.
    I own 100 acres just South of the Upper Elk River at the confluence 
of Old Field Fork and Big Spring Fork. I rely on this river and her 
many springs for clean water and appreciate the natural beauty along 
her riverbanks.
    I believe the study will let us make the proper decisions in 
keeping the Elk River healthy for future generations.
                                 ______
                                 
     Statement of Fairley Workman, Slatyfork Farm, Marlinton, WV, 
                              on H.R. 3113
    This letter is written to provide my opinion of the PSD; especially 
relevant to the proposed sewage treatment plant which I have been 
involved with since 2005. Many other people in this county share the 
same negative opinion of the PSD.
    While I have no hard evidence, in all appearances, the PSD 
represents the special interests such as Snowshoe, developers, 
realtors, and other people working behind the scenes. For instance, we 
are told the sewage plant must be a regional plant, when in fact, this 
is only a link to Snowshoe's DEP fine of $2.7 mm which will be reduced 
to $0.2 mm if a regional plant is built which will involve 5 miles of 
raw sewage being piped over karst limestone (site 5.) or 3 miles 
(modified site 7.). Even a regional plant does not have to be a central 
pipe line; instead, cluster units would qualify for same.
    Obviously, developers and realtors would benefit greatly by the 
extended pipe line.
    Who represents the folks who live, work, play in the valley and the 
other citizens of this county; certainly not the PSD who seems destined 
to make a catastrophic decision to pipe raw sewage over unstable karst 
limestone. It could take only one major leak to ruin Big Springs Fork 
and the ground water used as drinking water for people in the valley.
    As you and David Fleming should be acutely aware, the people of 
this county spoke with their votes against the past County Commission 
presidents mainly due to their support of the sewage treatment plant 
locations as specified by the PSD. Unfortunately, their will is being 
undermined by the PSD.
    Also, I am led to believe that the newest member of the PSD is a 
developer and/or realtor; if so, this is certainly a blatant conflict 
of interest.
    In conclusion, I am not sure that the County Commission has any 
power to change this situation, but I just wanted you to know that the 
PSD, in present form, is dictatorial and does not represent the common 
people of this county.
                                 ______
                                 
Statement of Amon L. Tracey, President, West Virginia Outdoor Sportsman 
                           Club, on H.R. 3113
    I, Amon Tracey, would like to see a study done on the Upper Elk 
River to find if it can be considered to become a Wild and Scenic 
River.
    President of West Virginia Outdoor Sportsman Club with 13,000 
registered members.
                                 ______
                                 
Statement of Ramona Sharp Shipley, Hilton Head Island, SC, on H.R. 3113
    I was born near the banks of the Big Spring of Elk where our Sharp 
ancestors chose to settle some eight generations ago.
    The cool springs popping out of the ground nearby and feeding the 
flow of water to the Big Spring of Elk are a spawning place for our 
native brown trout and other species.
    The Upper Elk River is important to me, my family and our 
community.
    I own fifteen acres northeast of the confluence of Big Spring Fork 
and Old Field Fork.
    I fully support a study of the Upper Elk River for consideration in 
the Wild and Scenic River system.
                                 ______
                                 
  Statement of Barbara Sharp Smith, The Woodlands, Texas, on H.R. 3113
    Please consider this a request that application be made for a study 
of the Upper Elk River to qualify it for the federal designation as 
``Wild and Scenic.''
    My family owns property on Highway 219 including the meadow next to 
the bridge nearest Beckwith Lumber Company. It has been in the family 
since George Washington surveyed this area.
    ``Stewardship'' was not an idle word for my father, Paul L. Sharp. 
He stressed the need for responsibility, and that included caring for 
our land and family. Protecting the headwaters certainly qualifies as 
responsible stewardship.
       Statement of Tolly Peuleche, Monterville, WV, on H.R. 3113
    As a landowner in the upper Elk River watershed, I strongly support 
the idea of requesting the Federal Government to initiate a study of 
this special river for possible inclusion in the Wild and Scenic River 
program. My property includes approximately a mile of river frontage 
and 1 would have no trouble with such a study or possible ultimate 
designation, especially since there is no comparable WV state program. 
The public needs to see as much factual and comprehensive data about 
the resources in the river corridor as possible in order to help define 
a common vision for the future. The program is well designed, thorough, 
impartial, and will take into account opinions of all adjacent 
landowners while not limiting any existing uses.
    Please request as soon as possible that this unique and wonderful 
West Virginia river be studied for possible designation as a Wild and 
Scenic River.





</pre></body></html>
